<html>
<title> - PROVIDING THE CENSUS BUREAU WITH THE TIME TO PRODUCE A COMPLETE AND ACCURATE CENSUS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                      PROVIDING THE CENSUS BUREAU
                       WITH THE TIME TO PRODUCE A
                      COMPLETE AND ACCURATE CENSUS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 10, 2020

                               __________

                           Serial No. 116-116

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                              ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-955 PDF            WASHINGTON : 2020                              
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Wm. Lacy Clay, Missouri              Jim Jordan, Ohio
Stephen F. Lynch, Massachusetts      Paul A. Gosar, Arizona
Jim Cooper, Tennessee                Virginia Foxx, North Carolina
Gerald E. Connolly, Virginia         Thomas Massie, Kentucky
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             Gary Palmer, Alabama
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

                     David Rapallo, Staff Director
                        Janet Kim, Chief Counsel
                          Elisa LaNier, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
               
                                 ------                                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 10, 2020...............................     1

                               Witnesses

John H. Thompson, Former Director, Census Bureau (2013-2017)
    Oral Statement...............................................     9
J. Christopher Mihm, Managing Director, Strategic Issues Team, 
  Government Accountability Office
    Oral Statement...............................................    10
Stephen Roe Lewis, Governor, Gila River Indian Community
    Oral Statement...............................................    12
Stacey Carless, Executive Director, NC Counts Coalition
    Oral Statement...............................................    14
Hans A. von Spakovsky (Minority Witness), Senior Legal Fellow, 
  Heritage Foundation
    Oral Statement...............................................    16

* The prepared statements for the witnesses are available at:  
  docs.house.gov.


                           INDEX OF DOCUMENTS

                              ----------                              

  * Case Document - N.C. State Conference of the NAACP v. 
  McCrory; submitted by Chairwoman Maloney.

  * Letter - U.S. Business Community Supports Extending 2020 
  Census' Statutory Deadlines; submitted by Rep. Rouda.

The documents listed below are available at: docs.house.gov.


                      PROVIDING THE CENSUS BUREAU

                       WITH THE TIME TO PRODUCE A

                     COMPLETE AND ACCURATE CENSUS

                              ----------                              


                      Thursday, September 10, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11 a.m., in room 
2154, Rayburn House Office Building, Hon. Carolyn Maloney 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Lynch, 
Connolly, Raskin, Rouda, Mfume, Wasserman Schultz, Sarbanes, 
Welch, Speier, Kelly, DeSaulnier, Plaskett, Gomez, Tlaib, 
Porter, Comer, Jordan, Gosar, Foxx, Massie, Hice, Grothman, 
Palmer, Norman, Roy, Miller, Steube, and Keller.
    Chairwoman Maloney. Welcome, everybody, to today's hybrid 
hearing.
    Pursuant to House rules, some members will appear in person 
and others will appear remotely via WebEx. Since some members 
are appearing in person, let me first remind everyone that 
pursuant to the latest guidance from the House attending 
physician, all individuals attending this hearing in person 
must wear a face mask unless they are talking. Members who are 
not wearing a face mask will not be recognized.
    Let me also make a few reminders for those members 
appearing in person. You will only see members and witnesses 
appearing remotely on the monitor in front of you when they are 
speaking in what is known as WebEx as an active speaker view.
    A timer is visible in the room directly in front of you. 
For members appearing remotely, I know you are all familiar 
with WebEx by now but let me remind everyone of a few points.
    For members appearing remotely, I know you are familiar and 
here are the points.
    First, you will be able to see each person speaking during 
the hearing whether they are in person or remote as long as you 
have your WebEx set to active speaker view.
    If you have any questions about this, please contact 
committee staff immediately.
    Second, we have a timer that should be visible on your 
screen when you are in the active speaker with thumbnail view. 
Members who wish to pin the timer to their screens should 
contact committee staff for assistance.
    Third, the House rules require that we see you. So, please 
have your cameras turned on at all times.
    Fourth, members appearing remotely who are not recognized 
should remain muted the minimize background noise and feedback.
    Fifth, I will recognize members verbally. But members 
retain the right to seek recognition verbally. In regular order 
members will be recognized in seniority order for questions.
    Last, if you want to be recognized outside of regular 
order, you may identify that in several ways. You may use the 
chat function to send a request. You may send an email to the 
majority staff or you may unmute your mic to seek recognition.
    Obviously, we do not want people talking over each other. 
So, my preference is that members use the chat function or 
email to facilitate formal verbal recognition.
    Committee staff will ensure that I am made aware of the 
request and I will recognize you. We will begin the hearing in 
just a moment when they tell me they are ready to begin the 
live stream.
    [Pause.]
    Chairwoman Maloney. Do I need someone to tell me?
    Pardon me? Are we ready?
    [Pause.]
    Chairwoman Maloney. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. I now recognize myself for an 
opening statement.
    Good morning, and thank all of you for joining me today, 
especially our witnesses. This past April, the Trump 
administration asked Congress to pass urgent legislation to 
extend several key statutory deadlines for the 2020 Census for 
about four months.
    This request was based on unprecedented delays caused by 
the coronavirus crisis. The president personally advocated for 
these extensions.
    He said, and I quote, ``I think 120 days isn't nearly 
enough,'' end quote.
    The House responded quickly by passing these extensions on 
May 15 as part of the HEROES Act. I also introduced stand-alone 
legislation on May 27, the Fair and Accurate Census Act, and 
the Senate introduced a companion bill.
    However, on July 28, the Trump administration seemed to 
reverse course. The Commerce Department told the Census Bureau 
it needed to deliver data to the president by the end of the 
year, and the Senate has failed to act to pass the time delay.
    As a result, Census Bureau workers were forced to rewrite 
carefully considered plans over the course of a weekend. They 
had to cut field operations by a month and they had to slash 
their data processing operations from five months to three.
    Last week, I released an internal document--this document, 
showing that Census Bureau officials warned the Commerce 
Department about how these cuts would significantly damage the 
2020 Census.
    They cautioned that, quote--and I am quoting from this 
report--``eliminated activities will reduce accuracy,'' end 
quote.
    They highlighted that the compressed schedule, quote, 
``creates risk for serious errors not being discovered in the 
data,'' and they warned that these errors, quote, ``may not be 
fixed because of the lack of time,'' end quote.
    There is strong bipartisan support for extending these 
deadlines in the wake of the coronavirus crisis. So, why has 
the Trump administration seemingly gone back on this request?
    Why did they ask? They asked for the extension and then why 
did they reverse themselves and drop it? And why can't we give 
the Census Bureau professionals the time that they need for an 
accurate and complete count of everyone?
    We do not have the full story. But the White House Chief of 
Staff Mark Meadows stated that the reason for this change, and 
I quote--his quote is, ``The Democrats just want to control the 
apportionment and we are not going to let them do that,'' end 
quote.
    His statement seems to forget that it was the Trump 
administration that asked for this change in the first place, 
that asked for these extensions, not Democrats.
    It also seems to suggest that Donald Trump will not be 
president next year so the administration wants to control 
apportionment this year while he is still in office.
    But there is a much bigger problem with this statement. An 
undercount will directly harm states and, therefore, people 
across this country, including states with large populations 
who vote Republican.
    An undercount will reduce the amount of funding these 
states are entitled to receive for health care, education, and 
transportation.
    Each year we distribute over $1.5 trillion dollars--Federal 
trillion-dollar payments to states based on Census numbers, and 
if the numbers are not correct, then the payments to the 
communities are not correct or fair.
    This is not a theoretical risk. Today, I am releasing 
several staff reports showing the negative impact on states 
with particularly hard-to-count populations: Alabama, Arizona, 
Florida, Georgia, Kentucky, Montana, North Carolina, South 
Carolina, Texas, and Utah. These states and others could be 
directly harmed by the president's insistence on rushing an 
inaccurate count by December.
    That is why a number of Republican senators have come out 
in support of extending the deadlines. Let me quote from a 
letter that Senator Steve Danes from Montana sent to Mitch 
McConnell and Chuck Schumer urging them to pass legislation to 
extend the deadlines.
    He wrote, and I quote, ``Given the rural nature of Montana 
and the additional challenges brought about by the ongoing 
COVID-19 pandemic, reverting the deadline back to September 30, 
2020, will leave tens of thousands of Montanans uncounted and 
underrepresented at the Federal level. Nearly half of the 
households in the state have yet to be counted. It is critical 
that a full and accurate Census is completed and every Montanan 
is counted,'' end quote.
    This should not be a partisan issue.
    This is a Republican senator from Montana. He supports the 
extensions because people from his state will lose Federal 
funding to which they are entitled. On Saturday, this past 
Saturday, a Federal judge issued an order temporarily halting 
efforts to end the Census early. This is good news, but we 
should not wait for the courts to determine the fate of the 
Census. Last month, four former Census directors, one of whom 
is John Thompson who is here with us today warned that we 
cannot have an accurate Census using the current schedule. The 
coronavirus crisis has made that impossible. If you support 
full funding for your state, if you support providing your 
constituents with healthcare, well-funded schools, hospitals, 
even road and bridge repair, then you should support these 
extensions. They will ensure your states are fully counted.
    Staff. The sound has locked out. It is now back. Sorry.
    Chairwoman Maloney. Shall I go back?
    Staff. You should go back.
    Chairwoman Maloney. To where?
    Staff. To Montana.
    She is going back.
    Chairwoman Maloney. I regret that the sound was dropped so 
I am now going back. We had a technical problem.
    OK. This is--OK.
    Let me quote--this is not a partisan issue. Let me quote 
from a letter that Senator Steven Danes from Montana sent to 
Mitch McConnell and Chuck Schumer, urging them to pass 
legislation to extend the deadlines.
    He wrote, and I quote, ``Given the rural nature of Montana 
and the additional challenges brought about by the ongoing 
COVID-19 pandemic, reverting the deadline back to September 30, 
2020, will leave tens of thousands of Montanans uncounted and 
underrepresented at the Federal level. Nearly half of the 
households in the state have yet to be counted. It is critical 
that a full and accurate Census is completed and every Montanan 
is counted,'' end quote.
    This should not be a partisan issue. This is a Republican 
senator from Montana. He supports the extensions because people 
from his state will lose Federal funding to which they are 
entitled. Over $1.5 trillion is distributed every year based on 
Census numbers and formulas to our cities and our states and to 
our people.
    On Saturday, a Federal judge issued an order temporarily 
halting efforts to end the Census early. This is good news, but 
we should not wait for the courts to determine the fate of the 
Census.
    Last month in this room, four former Census directors--one 
of whom, John Thompson, is here with us today--they warned that 
we cannot have an accurate Census using the current schedule.
    The coronavirus crisis has made that impossible. If you 
support full and fair funding for your state, if you support 
providing your constituents with health care, well-funded 
schools, hospitals, even roads and bridges, then you should 
support these extensions. They will ensure that your state is 
fully counted.
    The Senate should do what the Trump administration 
originally requested and what the career professionals at the 
Census Bureau need. Pass legislation to extend these deadlines 
and ensure a full, fair, and accurate Census for our country.
    Thank you for your indulgence. I will give the ranking 
member extra time should he require it and want it.
    I know want to recognize Mr. Comer, the ranking member, for 
his opening statement.
    Mr. Comer. Thank you, Chairwoman Maloney. I appreciate you 
calling this hearing today on the 2020 Census, even though we 
got started 22 minutes late.
    Let me begin by saying unequivocally the 2020 Census is 
counting every resident in the United States, regardless of 
citizenship status. Any assertions to the contrary are scare 
tactics which have the consequence of reducing participation in 
the Census.
    The Census is everywhere now. I want to encourage all 
people to complete their Census form. Census enumerators are 
knocking on doors around the country to count nonresponding 
households.
    I encourage everyone to engage with enumerators that come 
to your door. If you are concerned about an enumerator coming 
to your door, you can complete your 2020 Census online now at 
my2020census.gov.
    Unfortunately, the Democrats are not interested in 
bipartisanship on the 2020 Census. Instead, Democrats have, 
once again, launched a partisan investigation into the 2020 
Census. Surprise, surprise.
    Today's hearing is supposedly about the accuracy of the 
2020 Census. However, no witnesses from the Census Bureau have 
been invited to discuss current operations.
    Why aren't we hearing directly from the Census Bureau about 
the Census? Well, it is because the Democrats don't like what 
career Census Bureau officials have to say.
    In transcribed briefings before the committee, three Census 
Bureau officials stated that as of now the 2020 Census can be 
accurately and fully completed by September 30 of this year. 
These facts contradict the Democrats' narrative about the 2020 
Census so they are just going to ignore them.
    The truth is that technological improvements have made it 
possible to gather information more efficiently than ever 
before.
    Here are the facts about the 2020 Census according to 
career Census Bureau officials. As of September 8, 2020, 
nationwide 88.8 percent of all households have been counted in 
the 2020 Census. nationwide, 66 percent of the nonresponse 
followup
    [inaudible] has been completed. Forty-five states have 
counted 90 percent or more of all households. All states have 
counted more than 75 percent of all households.
    Enumerators in the field are working at a more productive 
pace than expected. Two hundred thirty-two thousand enumerators 
are working across the country with another 69,000 enumerators 
in training to begin work. These are the real facts about the 
Census that all Americans should know.
    The Democrats know these facts but are choosing to ignore 
them. In July, President Trump took a very important step to 
ensure the sanctity of our Nation's elections and equal 
representation under our Constitution.
    The president directed the Secretary of Commerce to report 
an apportionment count for the House of Representatives which 
excludes nonlegal residents in the United States, including 
illegal immigrants. All Americans should care about who is 
being included in the apportionment count.
    Including illegal immigrants in the count for 
representation in Congress only dilutes the representation for 
all Americans who vote in elections and makes a mockery of our 
basic principle of one person one vote.
    The president's action restores the concept of 
representational government envisioned by the Constitution. In 
a country so closely divided as the United States, illegal 
immigrants and noncitizens have a material effect on 
representation.
    Representation should matter to everyone with the simple 
question of fairness. Predictably, the Democrats' left-wing 
allies have already filed lawsuits against the president.
    I have no doubt that the information gathered in the 
Democrats' partisan investigation will be leaked to their left-
wing friends suing the administration. Forget the fact that 
testimony provided to the committee totally refutes the 
Democrat narrative.
    Like the sound and fury surrounding the citizenship 
question, the legal questions about the president's actions are 
likely to wind up at the Supreme Court. The hearing today is a 
continuation of the coordinated pressure campaign against Chief 
Justice Roberts and the other Supreme Court justices.
    The Democrat majority, their left wing allies, and activist 
judges are all working together to undermine the 2020 Census 
count.
    I urge us all to focus on the task ahead: the timely and 
accurate completion of the 2020 Census count by September 30, 
2020.
    Thank you, and I yield back.
    Chairwoman Maloney. Thank you.
    I now recognize my good friend, Mr. Raskin, who is the 
chairman of the Subcommittee on Civil Rights and Civil 
Liberties, for an opening statement.
    Mr. Raskin. Thank you so much, Madam Chair, for holding 
this hearing and for being such a great champion for the 
Census.
    I just want to take a second to remind my friend that the 
Trump administration lost its battle to paste a citizenship 
question last minute onto the Census in the Supreme Court. So, 
the Supreme Court has already rejected their efforts to post 
graffiti all over the Census.
    Look, it is difficult enough in a normal year to conduct a 
Census of all the American people. It is infinitely harder in 
the middle of a pandemic, and the intricate plans and military 
like schedule that were a decade in the making have been 
completely upended by this out of control coronavirus crisis 
and the lethal incompetence and indifference of the Trump 
administration, thereby creating an unprecedented challenge for 
the Bureau.
    Despite the Herculean effort of an army of enumerators, 
there is still a shocking amount left to do to meet the 
constitutional mandate.
    As of yesterday, at least 15 percent of households in 10 
different states had not been counted. Those include Florida, 
North Carolina, New Mexico, South Carolina, Louisiana, Arizona, 
Mississippi, Montana, and Georgia.
    At the bottom of that list is Alabama, where the Bureau 
still has not enumerated 20 percent of the households. That 
doesn't seem like much, perhaps, but if 15 to 20 percent of 
people in all those states are uncounted, more than 12 million 
Americans will be missed.
    The threat of an inaccurate count is no more of a blue 
state problem than COVID-19 is a blue state problem. Of those 
10 states that are at the bottom of the barrel in enumeration, 
seven have Republicans representing them on this very 
committee.
    Sixty-five percent of the House seats in those 10 states 
are held by Republicans and more than half of those states have 
all-Republican delegations in the Senate. This is a problem not 
for blue states or for red states, but for the people of the 
United States.
    The Census is important for two main things: money and 
power. If you don't care about money or power, well, don't 
worry about the Census. But if you do, you better pay 
attention.
    I have got the honor of serving on the Select Subcommittee 
on the Coronavirus Crisis. Many people don't realize how 
crucial the Census is to our COVID-19 response and the ability 
of government to meet the needs of the people.
    The CARES Act, which established the $150 billion 
coronavirus relief fund, required that the money be distributed 
to states based on Census population data. Countless studies 
tracking the prevalence of the disease in the country have 
relied on Census track data and our fine-grained understanding 
of the disproportionate impact on communities of color across 
America is also based on Census data.
    The Census is used to determine where to build hospitals. 
It will help businesses trying to revitalize our economy, 
determine where to set up shop, and it will help cities and 
counties determine where to run bus routes and build roads that 
will help carry workers and consumers to their businesses.
    The Census cannot become a hostage once again to a 
political fight perpetrated by this administration and their 
allies in Congress. It is foundational to the American 
constitutional system and to representative democracy.
    It will only grow in importance as we use the data to fight 
the pandemic and rebuild our devastated economy. This is not 
the time to rush things in the interest of some partisan 
advantage.
    It is time to get it right. The pandemic has not only made 
the count itself harder; it has made post-enumeration data 
integrity even more compelling and essential. In a normal year, 
the Bureau counts everyone as close to April 1 as possible.
    But this year, the count has been stretched out over many 
months, six or seven months. That is six or seven months where 
people have scattered and moved around the country. College 
students have abandoned their dorms to go home.
    Laid off workers have consolidated households or moved in 
with families. Medical professionals shuffled around the Nation 
to hot spots. Essential workers quarantine themselves away from 
vulnerable family members.
    Loved ones who would have been counted on April, sadly, 
succumbed to the disease before their household was enumerated.
    And I need not remind my colleagues we have lost more than 
190,000 Americans to this nightmare. The chances seem higher 
than ever before that a lot of people are going to be missed 
while others may be double counted.
    This calls for a more comprehensive, robust, and elongated 
post-enumeration data review process. But instead, the Bureau 
has cut its data processing schedule by 40 percent, from 150 
days to around 90 days.
    The Bureau knows this is not enough time. We all know it is 
not enough time. The Bureau has been asking for an extension 
since April when it first concluded that it couldn't meet the 
current statutory redistricting and apportionment deadlines 
while still delivering the highest quality counts.
    The House has already agreed to this commonsense plan. But 
the HEROES Act, which granted the extension that the 
administration itself requested still is not law because of the 
inaction of the Senate.
    This has left the Bureau scrambling and caused the agency 
to abandon its carefully crafted data processing schedule for a 
seat-of-the pants plan cobbled together in a couple of days.
    This is not how an efficient modern government operates. 
This is what happens in failed states, not functioning 
democracies. Every Census expert, including the Bureau itself, 
agrees that a rushed Census is untenable and unsustainable and 
inconsistent with the Constitution.
    I call upon my GOP colleagues to give the Bureau the time 
it says it needs to do the Census right in 2020. I don't 
believe anyone here wants their constituents to go uncounted.
    Nobody wants their constituents to be missed. So, let us 
make sure that doesn't happen. Let us pass this indispensible 
and common sense extension and make sure that we have a 
comprehensive, full, and accurate Census in 2020.
    We will have to live with the results of it for a decade, 
and if 2020 has taught us anything by now it is that people's 
lives, our economy, and our democracy depend on getting things 
right the first time.
    So, let us not hide the truth. Let us not bury the truth. 
Let us recognize it and let us act accordingly.
    With that, I yield back to you, Madam Chair, and thank you 
for the time.
    Chairwoman Maloney. Thank you so much for all your hard 
work and statement today.
    Now I would like to introduce our witnesses. We are 
grateful for their attendance today and for their expertise.
    Our first witness today is John H. Thompson, who served as 
the Census director from 2013 to 2017.
    Then we will go to Christopher Mihm, who is the managing 
director of the Strategic Issues Team at the Government 
Accountability Office.
    Then we will hear from Stephen Roe Lewis, who serves as the 
Governor of the Gila Indian Community--River Indian Community.
    Next, we will go to Stacey Carless, who is executive 
director of the North Carolina Counts Coalition.
    Finally, we will hear from Hans von Spakovsky, who is a 
senior legal fellow at the Heritage Foundation.
    The witnesses will be unmuted so we can swear them in. 
Please raise your right hands.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative.
    Without objection, your written statements will be made 
part of the record.
    With that, Mr. Thompson, you are now recognized for your 
testimony.
    You want to turn on your mic? We can't hear you.
    [Laughter.]

 STATEMENT OF JOHN H. THOMPSON, FORMER DIRECTOR, CENSUS BUREAU 
                          (2013-2017)

    Mr. Thompson. Sorry.
    Good morning, Chairwoman Maloney, Ranking Member Comer, and 
members of the committee.
    Thank you for this opportunity to testify before your 
committee regarding providing the Census Bureau with time to 
produce a complete and accurate Census.
    I am extremely concerned that the actions that have been 
taken to truncate 2020 Census data collection activities by 
September 30, 2020, will adversely affect the quality and 
accuracy of the 2020 Census.
    I have submitted a detailed written testimony describing my 
concerns. In the following oral testimony I will present an 
overview of these concerns.
    The Census Bureau will not conduct an effective followup of 
those households that do not self-respond. Over 50 million 
households did not self-respond to the 2020 Census. The 
operation to enumerate these households is what the Census 
Bureau refers to as nonresponse followup, or NRFU.
    Given the magnitude of the nonresponding households, 
conducting a comprehensive NRFU is necessary to achieve a fair 
and accurate enumeration for all populations and areas.
    The Census Bureau took actions with respect to the COVID-19 
pandemic to revise the plans for data collection. In 
particular, NRFU was scheduled to start by August 11, 2020, and 
conclude by October 30, 2020.
    On August 3, 2020, the Census Bureau announced that the 
deadlines would not be extended and that the NRFU would be 
completed by September 30, 2020.
    The Census Bureau will have to take steps to complete NRFU 
more rapidly than it planned, given that it has already lost 
over a third of the schedule that the career staff had 
developed under the original plan.
    These adjustments, or steps, may include, one, not making 
sufficient enumeration attempts in hard-to-count communities. 
Hard-to-count communities have a significantly lower level of 
self-response and a correspondingly larger proportion of 
households that fall into NRFU in other communities.
    Not making appropriate enumeration attempts with staff with 
the proper understanding and language skills in these areas 
will lead to a higher proportion of incomplete responses.
    Two, the Census Bureau will have to rely on proxy 
enumerations to a much larger extent than in previous Censuses. 
Proxy enumerations had twice the level of error as other 
enumerations in the 2010 Census. A larger proportion of proxy 
enumerations in the 2020 Census will significantly increase the 
levels of error.
    Three, the Census Bureau will be forced to complete NRFU by 
relying on the use of administrative records to a greater 
extent than had been initially planned. Administrative records 
are not representative of immigrant and minority communities, 
so this will result in increased undercounts of these 
populations.
    Four, limitations imposed by the truncated schedule will 
force the Census Bureau to accept a higher proportion of 
incomplete NRFU enumerations, resulting in the use of count and 
whole-person imputation to a much greater extent than in 
previous Censuses. This will increase the undercounts for the 
hard-to-count communities.
    Five, finally, if the actions described in the document 
that the committee recently released are actually what is being 
implemented by the Census Bureau, it is clear that quality is 
being sacrificed in order to meet the September 30, 2020, 
deadline.
    The schedule for post data collection processing has been 
severely truncated, raising concerns of undiscovered computer 
errors and a loss of data quality.
    The initial Census Bureau schedule allowed five months for 
the post-data collection processing operations prior to the 
release of apportionment counts.
    In the revised schedule the Census Bureau issued in its 
request for an extension of the deadlines there was six months 
allocated to the post data collection processing. Under the 
current schedule, there were only three months available for 
the post data collection processing.
    The Census Bureau has released little information regarding 
how it plans to address the new limited timeframe for post data 
collection processing.
    For example, there was no discussion of how it plans to 
remove duplicate enumerations. The Census Bureau has stated 
that the time allotted for subject matter expert review and 
software error remediation has been compressed by cutting 21 
days from the schedule.
    This is alarming because the well-developed plans for this 
phase of post data collection processing were based on 
extensive planning. The likelihood of a serious computer error 
that goes undetected is very high.
    In conclusion, thank you for this opportunity and I look 
forward to answering any questions that you may have.
    Chairwoman Maloney. Thank you for your testimony and your 
service as a Census director that helped develop this plan that 
is now being compressed.
    I would now like to call upon Mr. Mihm. You are now 
recognized. Turn your mic on.

STATEMENT OF J. CHRISTOPHER MIHM, MANAGING DIRECTOR, STRATEGIC 
         ISSUES TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Mihm. Thank you, Madam Chairwoman.
    And Chairwoman Maloney, Ranking Member Comer, members of 
the committee, it is indeed a great honor to be here today to 
talk about the status of the 2020 Census.
    I have the great privilege today of talking about the work 
that many of my colleagues at GAO have been doing over many 
months on behalf of the Congress and to present that work to 
you today.
    Our bottom line today is that, like the rest of the country 
including, obviously, the Congress, the Census Bureau was 
forced to respond to the COVID-19 national emergency.
    In regards to the 2020 Census, it undertook a series of 
changes that resulted in the COVID-19--resulted in delays, 
compressed timeframes, implementation of untested procedures, 
and continuing challenges which we believe could undermine the 
overall quality of the Census count and escalate costs.
    My statement today is based on our August 27 report to this 
committee entitled ``2020 Census: Recent Decision to Compress 
Time Frames Poses Additional Risks to an Accurate Count.''
    As you mentioned and as you know, on August 3, the Bureau 
announced that it would end data collection by September 30 and 
deliver apportionment counts by the statutory deadline of 
December 31. This September 30 cutoff date is one month earlier 
than the Bureau had planned due to the COVID-19 emergency.
    The Bureau said it would shorten, first, planned field data 
collection and, second, data processing operations in order to 
meet the statutory deadlines.
    My comments this morning will cover both of those--or 
issues in both of those areas.
    First, in regards to field data collection, the good news, 
as Mr. Comer noted in his opening statement, is that as of 
September 8 the Bureau was about 70 percent complete in 
following up on households where it did not have a Census form. 
This is ahead of its goal to be at 62 percent at this point.
    On the other hand, and not surprisingly--and, Madame 
Chairwoman, this was the point that you were making in your 
opening statement--the Census progress varies markedly among 
localities and, in fact, the Census is inherently a local 
enterprise and some hard-to-count areas are lagging 
significantly from the national average.
    High rates of COVID-19 in some areas, weather events such 
as Hurricane Laura, wildfires, all affect the Bureau's ability 
to visit households to get a response. As of September 1, 49 of 
the 248 local Census offices had not met their followup goals.
    The Bureau had planned to hire up to 435,000 enumerators to 
conduct followup. However, as of September 8, the Bureau had 
hired only about 355,000 Census takers.
    Again, the Census is local and as of the end of August, 70 
area Census offices were below 50 percent of their goal in the 
numbers of enumerators actively working, exacerbating the 
workload issue that I just discussed.
    To help address staffing shortfalls, the Bureau is 
providing incentive awards to its staff based on productivity 
and hours worked. The Bureau also made operational adjustments 
to its followup efforts.
    However, as you mentioned, Madam, as of September 5 the 
temporary restraining order was issued that enjoins the Census 
Bureau from accelerating its data collection and data 
processing or allowing any actions as a result of the shortened 
timelines to be implemented.
    As a result, the Bureau's ability to continue with those 
adjustments is unclear at this time. We will continue to 
monitor and followup on these operations and will be reporting 
to the Congress.
    Second, in regards to the streamlined response processing, 
the commitment to provide the apportionment counts by the end 
of December means, as Director Thompson was mentioning, that 
the Bureau has less time to conduct its post data collection 
activities which improve the completeness and accuracy of 
Census data.
    During Census response processing, the Bureau checks for 
duplicate and inconsistent and incomplete responses and, where 
appropriate, uses administrative records to supplement the 
response data.
    The Bureau expects to begin this response processing in 
mid-October instead of in January 2021, as previously planned, 
after Commerce requested the statutory change to the required 
deadline.
    This means activities that were planned for 150 days will 
now need to be completed in 92 days. However, here too the 
Bureau's plans may change due to the September 5 temporary 
restraining order and, again, we will continue to monitor this.
    Let me conclude on a point that Mr. Comer was making in his 
opening statement about the continued importance of public 
participation. There is still time to fill out the form. There 
is still time to cooperate with the Census taker when they come 
to our addresses. The national need is to have a full and 
accurate Census.
    With this, Madam, this concludes my statement and I would 
be pleased to take any questions you or the committee may have.
    Chairwoman Maloney. Thank you very, very much for your 
testimony. You have testified many times before this committee 
on the Census and we appreciate it.
    Next, we will hear from Governor Lewis.
    Governor Lewis, you are now recognized, and he will be by 
remote.
    Governor Lewis?

  STATEMENT OF STEPHEN ROE LEWIS, GOVERNOR, GILA RIVER INDIAN 
                           COMMUNITY

    Mr. Lewis. Good morning, Chairwoman Maloney, Ranking Member 
Comer, Congressman Gosar, and members of the committee. I want 
to thank you for holding this important and timely hearing on 
producing an accurate Census.
    My name is Stephen Roe Lewis and I am the Governor of the 
Gila River Indian Community. The community is located outside 
of Phoenix, Arizona, and our reservation covers approximately 
372,000 acres. In total, the community has over 22,000 tribal 
members with approximately 14,000 residing on the reservation.
    I want to state up front that the community supports this 
committee's efforts to legislatively extend Census field 
operations to October 31, 2020, and the statutory deadlines for 
reporting the apportionment and redistricting data to April 30, 
2021, and July 31, 2021, respectively.
    An accurate Census is critical to Indian Country. It is not 
an exaggeration to say an accurate Census can be a matter of 
life or death in tribal communities because the program 
impacted by a Census count affects delivery of health care, 
public safety, our youth and elder programs, housing, violence 
against women grants, and other programs that sustain our 
tribal communities.
    And we have a reason to be concerned that an accurate count 
will not occur if the Census Bureau ends field operations at 
the end of this month.
    In March of this year during the initial stages of the 
coronavirus pandemic, the Census Bureau temporarily suspended 
operations because of health and safety issues.
    In April, the Commerce secretary and the Census Bureau 
director announced a plan to extend field operations to October 
30, 2020, and seek an additional 120 calendar days for 
apportionment and redistricting reporting.
    However, in August, in an abrupt reversal, the Census 
Bureau condensed the deadline for field operations and self-
response to September 30 and is no longer seeking an extension 
for reporting.
    This is troubling to the Gila River Indian Community and 
the many other tribal leaders and tribal organizations that I 
have spoken to.
    In the 2010 Decennial Census, Indian Country was the most 
under counted demographic at a rate more than double the next 
closest hard-to-count population, and that was during a regular 
Census cycle.
    The current self-response rate on the Gila River Indian 
Community's reservation today is 10.1 percent. Let me say that 
again, 10.1 percent. That means that if the Census were to end 
today, I can only be certain that 2,200 of our over 22,000 
tribal members would be counted.
    That is compared to response rates for the state of Arizona 
of 62.1 percent and a national rate of 65.5 percent. And we are 
not alone.
    If you look at the chart that accompanies my written 
testimony, you will see that of the 19 tribal responders in 
Arizona, 17 are below a 50 percent response rate and 14 are 
below a 33 percent response rate.
    These self-response rates are staggeringly low, but not 
surprising. In many tribal communities like the Gila River 
Indian Community, in-person contact is the only method to make 
sure our households are counted, and that just wasn't possible 
this year.
    At the risk of stating the obvious, we are in the midst of 
a global pandemic. Indian Country has the unfortunate 
distinction of being the most impacted population of COVID-19, 
according to the CDC.
    Ironically, the reasons can be directly tied back to these 
programs that rely on Census data for funding allocations like 
housing, infrastructure, and elder care, to name a few.
    The circumstances that created the interruption of Census 
field operations could not have been predicted or prevented. 
But what can be prevented is a rushed count.
    Any attempt to deliberately cutoff Census operations during 
the pandemic with the full understanding that it will result in 
such a significant undercount for Indian Country is not only 
irresponsible, Madam Chair and members of the committee, it is 
a breach of the trust responsibility between the United States 
and tribal nations.
    At the Gila River Indian Community, our reservation has 
been in shelter at home status for all but four weeks since 
March. My executive order to require a mask for anyone on the 
reservation was one of the first in the state.
    I did that because as an elected leader it is my 
responsibility to put the health and safety of my people and 
all those on the reservation first.
    But that doesn't mean the Gila River Indian Community or 
any other tribal nation in the United States gave up our right 
to be counted in the Census. The stakes are too high.
    We have the right to adequate Federal representation in 
Congress and we have the right for our voices to be heard. The 
tribal members of the Gila River Indian Community count. The 
members of all Arizona tribal nations count. The members of all 
574 tribal nations must be counted.
    Anything other than the time and process required for a 
full and accurate Census count is a deliberate undermining of 
our tribal communities, and that is not only unacceptable, it 
is unconscionable.
    Thank you for opportunity to speak today and I am happy to 
answer any questions from the committee.
    Chairwoman Maloney. Thank you so much for your testimony, 
Governor.
    Now, Ms. Carless, you are now recognized.
    Ms. Carless?

  STATEMENT OF STACEY CARLESS, EXECUTIVE DIRECTOR, NC COUNTS 
                           COALITION

    Ms. Carless. Chairwoman Maloney, Ranking Member Comer, and 
members of the committee, I am Stacey Carless, executive 
director of NC Counts Coalition. I want to thank you for the 
opportunity to appear before you today to testify about the 
upcoming 2020 Census deadline.
    NC Counts Coalition is a nonprofit organization established 
to facilitate cross-sector collaboration to achieve a complete 
and accurate Census count for North Carolina.
    We believe that accurate Census data is essential to the 
economic and general well being of every single North 
Carolinian. Our role as North Carolina's hub for 2020 Census 
outreach keeps us on the ground and connected to North Carolina 
communities, which positions us well to adjust the current 
deadline of the 2020 Census.
    As COVID-19 continues to disrupt our lives, it is also 
disrupting the 2020 Census operation. About 3.8 million 
individuals are missing from North Carolina's count, putting 
North Carolina at risk of missing out on $7 billion in Federal 
funding every year and not gaining our expected fourteenth seat 
in the U.S. House of Representatives.
    As of September 7, 61.4 percent of North Carolina 
households had self-responded to the Census. This is below the 
national average of 65.5 percent and below our state's 2010 
self-response average of 64.8 percent. North Carolina has 100 
counties. Only 18 of our 100 counties have surpassed their 2010 
self-response rate.
    Currently, Census tracts with low Census self-response 
rates have greater proportions of residents that identify as 
American Indian, Black, or Latino. These populations have also 
been hit hard by COVID-19 and felt the impact of hurricanes in 
the last couple of years.
    Other factors associated with low response in North 
Carolina include low internet access, college and military 
communities, and Census tracts with a high percentage of young 
children under five.
    North Carolina needs an extended timeline for self-response 
and a robust nonresponse followup field outreach. We are 
extremely concerned that North Carolina is on the verge of a 
failed 2020 Census.
    Due to COVID-19, Census Bureau staff has been limited in 
the field support they have provided as part of self-response 
operations.
    On July 14, the Census Bureau announced that it will begin 
its mobile questionnaire assistance program. Census Bureau 
staff categorize NC counties as green or red, according to the 
counties' COVID-19 infection rate. Red counties were considered 
high-risk counties where MQAs could not be conducted.
    From July 30 through about August 12, Census Bureau staff 
were discouraged from working in red counties, which were more 
than half of North Carolina counties.
    We are also concerned about the accuracy of the non-
response followup enumeration due to allegations of inadequate 
training, reports of terminated employees, and witnessed 
accounts of enumerators not knocking on doors.
    Last week, our organization dropped off information in low-
responding Census tracts. While there, our staff observed an 
enumerator go door to door and place a Census form at the 
doorstep without even knocking on doors.
    Due to time, I can only share with you one example of an 
instance that has raised red flags. We hear on a regular basis 
from current and past Census staff about concerns that they 
have about Census operations.
    We are concerned about the quality of data being collected 
through the nonresponse followup operation. Under the current 
timeline, it will be nearly impossible for enumerators to knock 
on the doors of the estimated 1.5 million households that have 
yet to respond.
    We are concerned about the state's current nonresponse 
followup rate of 20.7 percent. Is the Bureau focusing on 
adjustments that are easy to enumerate such as vacation homes 
in the mountains and at the beach where homes are likely 
vacant, allowing for an easier enumeration, versus deploying 
resources into low-performing Census tracts where Black and 
brown families actually reside?
    I have provided you with data and testimony to illustrate 
our concerns. NC Counts Coalition and our partners remain 
steadfast in our commitment. We understand the impact that this 
enumeration will have on our communities for the next 10 years.
    Our children need a complete and accurate Census to access 
education. Our seniors need a complete and accurate Census so 
they can retire and have access to health care.
    Our military community needs a complete and accurate 
Census. As they fulfill their commitment to serve our country, 
it is our commitment to serve them.
    Throughout the pandemic, partner organizations have 
strapped on their boots, put on their masks, and done their 
part to get out the count across North Carolina.
    We need more time. The Constitution gives Congress 
responsibility for getting the Census right. If there is any 
hope of salvaging a complete and accurate 2020 Census, the 
deadline must be extended to at least October 31, 2020.
    Thank you.
    Chairwoman Maloney. Thank you very much for your testimony.
    I now recognize our final speaker.
    Mr. Spakovsky, you are now recognized.
    Mr. von Spakovsky. Can you hear me, Madam Chairman?
    Chairwoman Maloney. Yes, we can hear you. Thank you.
    Mr. von Spakovsky. Very good. Thank you.

STATEMENT OF HANS A. VON SPAKOVSKY, (MINORITY WITNESS), SENIOR 
               LEGAL FELLOW, HERITAGE FOUNDATION

    Mr. von Spakovsky. I appreciate the invitation to be here 
today.
    It is essential that the Census Bureau follow longstanding 
historical precedent and collect data on the number of citizens 
and noncitizens present in the U.S. using the extensive 
information on citizenship contained in executive branch agency 
records that the president has ordered supplied to the Census 
Bureau.
    That data is important not only for apportionment and 
redistricting but also for the effective enforcement of the 
Voting Rights Act. It is within the constitutional and 
delegated statutory authority of the chief executive to direct 
the collection of citizenship data.
    Collection of citizenship data is also vital to establish a 
consensus on national immigration policy. Without citizenship 
data, it is not possible to have an informed debate and 
discussion over what U.S. policy should be and how to 
successfully implement it.
    The Census Bureau has been collecting citizen population 
data since the 1820 Census. It currently collects that data 
through the American Community Survey.
    However, because the ACS is only sent out annually to about 
two percent of American households, it does not collect 
complete data on the country. The executive order ensures that 
the Census Bureau has access to all available records.
    The limited citizenship data from the ACS is routinely used 
by the Department of Justice in enforcing Section 2 of the 
Voting Rights Act.
    Section 2 is most often used for challenges to at-large 
districts and to the redistricting process ensuring that 
minority voters have the opportunity to elect representatives 
of their choice.
    The remedy to a Section 2 violation is to draw a district 
in which minority voters, citizens, constitute a majority of 
the voters such that they can elect their candidates of choice. 
Citizen population data is essential to drawing an effective 
voting district for minority voters.
    The Justice Department's use of citizenship data can be 
seen in numerous complaints filed by the Justice Department to 
enforce Section 2 in both Republican and Democratic 
administrations. But it is hampered by the limited data 
available through the ACS.
    Basing apportionment on total population that includes 
large numbers of illegal aliens is fundamentally unfair to 
American citizens and dilutes and diminishes the value of their 
votes.
    On July 21, President Trump issued a memorandum directing 
that illegal aliens be excluded from the population used for 
apportionment. This is within his constitutional and statutory 
authority.
    Since the first Census, we have not counted every single 
individual physically present in each state. As is the normal 
procedure, for example, and this is a quote from the current 
Census residency criteria, ``Citizens of foreign countries 
visiting the United States such as on vacation or business 
trips are not counted.''
    In Franklin v. Massachusetts, the U.S. Supreme Court 
pointed out that the key phrase in the Constitution concerning 
the number of persons, quote, ``in each state can,'' and this 
is a quote from the Supreme Court case, ``mean more than mere 
physical presence and has been used broadly enough to include 
some element of allegiance or enduring tie to a place.''
    Illegal aliens, like tourists, clearly, have no element of 
political allegiance to a state or a Federal Government. They 
can't be called for jury duty. They can't be drafted for 
military service, if we had a mandatory draft, because they owe 
their political allegiance to their native country of which 
they are citizens.
    Furthermore, illegal aliens have no enduring tie to any 
state since they are illegally present in the country. They can 
be picked up, detained at any time by Federal authorities, and 
removed from the U.S.
    Thus, excluding individuals who have no allegiance or 
enduring tie to a state is well within the precedent set by the 
court in Franklin.
    As the Supreme Court said in Reynolds v. Sims, its seminal 
case on representational government and the equal protection 
clause, quote, ``Achieving a fair and effective representation 
of all citizens is conceitedly the basic aim of legislative 
apportionment.''
    Illegal aliens are not citizens and the fact that they may 
be temporarily or merely, as the Supreme Court said, living in 
a particular state does not make them inhabitants who must be 
counted for apportionment purposes.
    Including noncitizens in apportionment and redistricting 
unfairly dilutes the votes of citizens and distorts the 
political representation of states. This violates fundamental 
principles of fairness and equity to which citizens are 
entitled as members of the body politic.
    The senior career leadership currently in the Census Bureau 
has already testified before this committee that it has the 
ability, the time, and the resources to provide an accurate 
count of the population of the U.S. as it has in numerous prior 
Census counts.
    That includes its duty and obligation to provide a complete 
count of the number of citizens and noncitizens present in the 
country.
    Thank you, Madam Chairman.
    Chairwoman Maloney. Thank you very much for your testimony. 
The gentleman yields back, and now I will thank all of our 
participants today.
    I now recognize myself for five minutes for questions. I 
want to address my questions to the two people here from states 
that could lose tens of millions of dollars in Federal funding 
as a result of a rushed undercount--Ms. Carless from North 
Carolina and Governor Lewis from Arizona--because this will not 
happen only in Democratic-leaning states. It will happen in 
states with Republican voters and representatives, too.
    Now, both of your states are lagging behind on their Census 
counts for a variety of reasons including the coronavirus 
crisis.
    Right now, the national average of response is 88.8 
percent. But North Carolina is only at 82.9 percent and Arizona 
is even worse at 80.8 percent.
    So, in other words, North Carolina is six percentage points 
behind the national average and Arizona is eight percentage 
point behind. So, let us discuss what this means for Federal 
funding for your state.
    Ms. Carless, in the staff report we issued this morning, we 
estimated how much funding your state would lose with an 
undercount of just one percent, and based on that estimate, 
North Carolina could lose more than $99 million in Federal 
funding. That includes funding for health care, jobs training, 
education, transit and much more, and that is for just one 
year. Over 10 years, that would be nearly $1 billion.
    Ms. Carless, this is Federal funding that the people of 
your state, the people of North Carolina, are entitled to under 
the law. But they will not get it if they are not counted.
    Isn't that right? And what does that mean for your state, 
Ms. Carless?
    Ms. Carless. Chairwoman Maloney, thank you for your 
question, and yes, that is correct. North Carolina is the ninth 
most populous state and the fourth fastest growing state in the 
country. Our state really needs every dollar we are entitled to 
support infrastructure, resources, and programs for our growing 
population.
    Also, I think the current pandemic really magnifies the 
importance of government programs such as housing assistance 
and food and nutrition programs, which all relate back to the 
Census.
    So, right now in North Carolina there are 1 million utility 
customers and renters at risk of utility disconnection and 
eviction as well as applications for food assistance programs 
that has increased by 15 percent, and unemployment is high. 
North Carolina is going to need every dollar we are entitled to 
as our state recovers from the financial hardships of this 
pandemic.
    Chairwoman Maloney. Thank you.
    Now, Governor Lewis, according to our estimate, an under 
count of just one percent in Arizona could mean a reduction of 
Federal funds of over $60 million. Again, that is just for one 
year.
    Over the next decade, which is what the Census numbers 
stand for, a complete 10 years, that would be over $600 
million. And there is another factor. As you testified, Arizona 
has large tribal and rural areas and their counts are far below 
even the state average right now.
    So, Governor Lewis, Federal funding helps not only the 
tribal communities, who desperately need it, but the entire 
state of Arizona. These are funds that the people of your state 
are due under these Federal programs but they won't get it if 
things continue like this and go on as is planned.
    Isn't that right, Governor Lewis, and can you elaborate 
what will not getting a full and accurate count of everyone in 
Arizona mean to your state?
    Mr. Lewis. Thank you, Chairwoman Maloney, for bringing 
attention to the Arizona
    [inaudible]. What that report shows that if the undercount 
is the same percentage as the 10/27 American Communities 
Survey, the populations most at risk for under funding of 
critical programs are also the most vulnerable populations: 
African Americans, Hispanics, young children, Asian Americans, 
and over 19,000 American Indians.
    Each of those numbers represents an individual who won't be 
counted for purposes of education, health care, elder care, 
food security, housing, and other programs that utilize Census 
data.
    There is an individual, a family, and a community behind 
each of those numbers, Madam Chair, that will be irreparably 
harmed by the undercount that would be anticipated. And, again, 
the undercount anticipated for the 2020 Census is much greater, 
given the pandemic and interruption of Census operations.
    Now, in a real-world scenario, I don't have the specific 
dollar amount but I can provide an example that came about as a 
result of the allocation of the Tribal Relief Fund in the CARES 
Act.
    The Treasury Department used, in a large part, the 
population numbers from the Indian Housing Block Grant program 
to distribute those funds.
    The Gila River Indian Community had an undercount of 
approximately 8,000 tribal members. This resulted in tens of 
millions of dollars not being allocated to our tribal 
government to provide for our citizens during this pandemic.
    But some tribal nations had a population count so skewed 
that they received little or no money to combat COVID-19 in 
their tribal communities from population allocation, and these 
are impacts that will be with us for decades, not just one year 
or one COVID relief package, Madam Chair, members of the 
committee.
    Chairwoman Maloney. Thank you very, very much, and I would 
like to ask one last question to each of you and let you both 
respond.
    You both have Republican senators who represent your 
states. Senator McSally represents Arizona and Senator Tillis 
and Senator Burr represent North Carolina.
    I want the two of you to please explain, take a moment and 
tell your senators whatever you want about the need to extend 
the Census deadlines and what it will mean for the people of 
your state if they fail to ask. All we are asking is to extend 
deadlines.
    Governor Lewis, let us start with you. If Senator McSally 
was listening right now, what would you want to say to her 
about the need for an accurate and full Census count?
    Mr. Lewis. Madam Chair, I would tell my Republican 
delegation out of respect the same thing that I would tell all 
congressional members. The Census should not be a political or 
partisan issue.
    The Census is too important to all tribal nations, states, 
and local governments who rely on funding to provide for the 
basic needs of our citizens. The low response rates that are 
currently being reported are just as detrimental to those 
states deemed red states or blue states. In fact, the recent 
rankings of state responses placed more red states in the 
bottom 20 than blue states.
    We have to make sure there is an accurate count. It is in 
everyone's interest that the Census is accurate. Our tribal 
citizens are relying on it and, frankly, every Member of 
Congress should be relying on it because the Census determines 
representation and equal representation, and that is vital as 
Indian Country, as I represent my tribal community for its 
Federal tribal trust relationship, Madam Chair, and this goes 
right to the underpinnings and the foundation of our 
Constitution.
    Chairwoman Maloney. Thank you very much.
    Ms. Carless, what would you say to senators from North 
Carolina, Senator Tillis and Senator Burr?
    Ms. Carless. Senator Tillis and Senator Burr, I urge you to 
support a later deadline for a 2020 Census operation. Too much 
is at stake for North Carolina for us to risk a complete and 
accurate count. Forty-four billion dollars, a fourteenth 
congressional seat, and essential data to help guide allocation 
of resources and services for North Carolinians across our 
state.
    Senator Tillis, you advocated for North Carolina soldiers 
and Marines to be counted in the Decennial Census as residents 
of the state, regardless of whether or not they were deployed 
abroad.
    Unfortunately, the counties that are home to military 
families are under performing, leaving military families at 
risk of losing resources that would help support military 
personnel and their families.
    Let us not work--let us not let the work we put into 
getting North Carolina communities go in vain. Let us do 
everything we can together to support a complete and accurate 
2020 Census count for our state.
    Chairwoman Maloney. Thank you. I hope they are both 
listening.
    I now yield to the ranking member for five--for, well, he 
has said and designated that Congressman Gosar is next. I now 
yield to Congressman Gosar and recognize him for questions.
    [No response.]
    Chairwoman Maloney. Is there a technical problem?
    There seems to be some technical problem.
    Staff. Hice.
    Chairwoman Maloney. I now yield to Congressman Hice.
    Congressman Hice, you are now recognized.
    Mr. Hice. Thank you, Madam Chair.
    Mr. Mihm, let me begin with you, if I can. I am sure you 
are aware of the recent stats that the Bureau has come out 
regarding the nonresponse followup operations.
    Is that correct?
    Mr. Mihm. Yes, sir.
    Mr. Hice. OK. So, I feel like I am getting a little 
different type of information because in one regard we are, 
like, 70 percent ahead of the game but in other ways we are 
not. So just, bottom line, would you consider the Bureau ahead 
of projections or behind?
    Mr. Mihm. Well, as I mentioned, sir, is that there is good 
news and that is that they are ahead on their nonresponse 
followup of where they had--where their goal would be at this 
point.
    The challenge that they have, and we have seen this in 
every single Census, is getting that last few percentage points 
of the population and that is still something that they need to 
work on and that will be very difficult for them to do. But 
they are ahead of their schedule, according to their plan at 
this point.
    Mr. Hice. OK. And I would imagine every Census has 
problems, great difficulties, getting the last handful to 
respond. I mean, non-responders or nonrespondents. It doesn't 
matter which Census we are talking about. But, bottom line, we 
are ahead of projections. I think that is incredible news.
    Now, in light of that, districts like mine, just for 
example, the 10th District of Georgia, largely rural, we are 
reporting less than 60 percent. So, we are ahead. The Bureau 
estimated that there would be 60 percent of the self-
respondents.
    And yet, in our district, we have--at least certain areas 
of our district that we don't even have 60 percent counted yet. 
So, we have technological advances. We are using iPads. We are 
using laptops.
    We have got a lot of things going on. And yet, in some 
rural areas like mine we are still struggling to get the 
numbers.
    So, my question is what is the problem? Is it technology? 
Is it the pandemic? What is the issue in some of these more 
rural districts?
    Mr. Mihm. In some cases, sir, it is just almost a perfect 
storm. I mean, certainly, the pandemic has wreaked havoc on the 
Bureau's ability to, first, in terms of recruiting people.
    They are also having problems with turnover. Their turnover 
estimates were about 10 percent would come in to training and 
then not actually then begin work. It is actually running, you 
know, over double that.
    They are also having trouble, obviously, with people being 
willing to open the doors and talk, even though they practice 
PPE and are keeping a six-foot distance away from that.
    The big challenge that the Census Bureau runs into is, 
again, getting that last kind of couple of two or three percent 
of the population.
    For a 10-week operation of nonresponse followup, it is not 
uncommon for the last four weeks to be going after the two 
percent of the population.
    That is an important point, you know, both because we want 
everyone counted but it is also because that is where we make 
sure that those hardest to count, hardest to enumerate, 
communities are actually included in the Census.
    Mr. Hice. OK. So, the real--the real problem here, you are 
going to get--you feel comfortable we are going to get 97 
percent. The real problem is going to be getting that last 
three percent or so, correct?
    Mr. Mihm. That is typically been the challenge that the 
Bureau faces. I mean, obviously, it is even more compressed 
this time.
    But if they end up with three percent without being, you 
know, fully enumerated, that would be by all historical 
standards and, certainly, the standards of the professionals at 
the Census Bureau not a successful count, not a complete and 
accurate count. So, that would be a major kind of defeat--
institutional defeat for the Census Bureau.
    Mr. Hice. OK. So, we have got, let us say, 20 days or so 
remaining for the field operations right now. What are the 
biggest challenges on this final stretch for our rural 
districts?
    I mean, obviously, internet connectivity is, I would think, 
somewhat of a problem. But what are the biggest challenges that 
you are facing as we approach this deadline?
    Mr. Mihm. I think the biggest challenges, sir, are, first, 
making sure that we have enough enumerators out there and that 
they are working enough hours, and that is part of what the 
incentive pay program the Census Bureau has put in place to 
address is to try and get the enumerators to work more hours.
    That is probably one of the biggest things. The second 
thing is, obviously, having the public cooperate and 
participate with the Census Bureau.
    The Census Bureau has continued its community outreach 
programs because they know in a lot of areas around the country 
having trusted local voices speak up for the Census and talk 
about the importance of the Census, as a couple of the 
witnesses here have done, is very important to convincing 
people to participate in the Census.
    And then, hopefully, touch wood, that we don't have other 
coronavirus spikes, we don't have other weather-related events. 
That would, certainly, derail the Census Bureau if any of that 
happened.
    Mr. Hice. But you feel like we are going to make it, and I 
will close with this. You feel like we are going to make the 
deadline. Is that correct?
    Mr. Mihm. Well, it depends on--you know, and I am not 
trying to--you know, to parse words here, sir, you know, to be 
accurate. It is that the Census Bureau will complete a Census.
    The question and the risk is what will be lost. Will we--
will it be a less than historically acceptable count in terms 
of completeness and in terms of accuracy, and that is the big 
worry that I think everyone faces.
    Mr. Hice. Sure it is. Thank you.
    I yield.
    Mr. Mihm. Thank you, sir.
    Chairwoman Maloney. Gentleman yields back.
    Congresswoman Norton is now recognized.
    Congresswoman Norton, you are now recognized.
    Ms. Norton. Thank you very much, Madam Chair, for this 
important hearing. It means dollars and cents to every district 
including my own, the District of Columbia.
    I want to get a sense of what we are talking about here, 
Mr. Thompson, when we hear that the time has been cut from five 
months to three months exactly what the implications are.
    Mr. Thompson, could you explain how the Census Bureau 
develops timelines for data collection and processing so we 
will understand what this reduction in months means?
    Mr. Thompson. Certainly, Congresswoman. I am delighted to 
respond.
    So, the Census Bureau began their testing program in 2013 
and it conducted a number of tests, did a lot of research, 
understanding the time that was available to conduct the 2020 
Census.
    And based on that extensive planning and preparation, they 
developed a schedule, and that schedule allowed for five months 
of post data collection processing.
    That is, basically, how it came about.
    Ms. Norton. So, this is not--this is certainly not 
arbitrary timeline. Let me further ask you, Mr. Thompson, in 
order to process this data on a shortened timeline, will the 
Bureau have to alter or eliminate some of the processes it has 
developed to ensure a complete and accurate Census?
    For example, in a court suit filed, the Census Bureau said 
it plans to cut 21 days from the schedule by compressing the 
time allotted, and here I am quoting, ``subject for subject 
matter expert review and software remediation.''
    I wonder if you would translate that for us. Does this 
change increase the risks of an inaccurate or incomplete data 
count? If so, why?
    Mr. Thompson. Congresswoman, that is also a good point.
    So, what that operation entails is for the Census Bureau 
subject matter experts to look at preliminary tabulations of 
Census data and compare them with well known benchmarks and 
understand what is causing differences, and then they have to 
go back and if they find differences and understand is this a 
computer problem or is this a problem with the Census counts or 
what.
    So, it is very important that they carry out this operation 
because that is one of the ways in which they find that there 
are errors in their computer programming, and then they fix 
those errors. If they don't fix the errors, they could be with 
us for quite a while.
    Ms. Norton. Here is--here is another change mentioned and, 
again, I am asking for your translation.
    The change described in this court suit is that the Census 
Bureau will eliminate redundant quality control steps. Why does 
this change increase risks of inaccurate or incomplete data, 
and if so, why?
    Mr. Thompson. Certainly, Congresswoman.
    So, the Census Bureau, on a lot of their operations, 
including the nonresponse followup interviewing and other 
interviews, they have quality checks that they build in to make 
sure that the enumerators are doing high-quality work.
    So, if those quality checks are reduced, then that, of 
course, introduces the prospect that more enumerator 
fabrication might occur and not be detected, and put more error 
into the system.
    Ms. Norton. And the bottom line, sir, are you concerned 
that 92 days will not be enough time to ensure that the Census 
is as accurate and as complete as possible?
    Mr. Thompson. Well, Congresswoman, as I have testified, I 
am very concerned about the effect of the truncated schedule on 
both data collection and post data collection processing on the 
accuracy and quality of the 2020 Census.
    Ms. Norton. Thank you, Madam Chair.
    Chairwoman Maloney. The gentlelady yields back.
    Congressman Jordan, you are now recognized.
    Mr. Jordan. Thank you, Madam Chair.
    Mr. von Spakovsky, so two weeks ago on August 28, Ron 
Jarmin, deputy director and chief operating officer of the 
United States Census Bureau said, ``We will be able to produce 
a complete and accurate Census by the deadline.''
    August 27, 2020, again, two weeks ago, Tim Olson, associate 
director for field operations, said, ``Yes, we are on track to 
get this done on time.''
    Same day, August 27, 2020, Al Fontenot, associate director 
for Decennial Census programs, said, ``All the indications are 
that we are on track.''
    So, three professionals running the Census have each said 
they are on track. And yet, Chairwoman Maloney says we need an 
extension. Mr. Raskin says we need an extension, and their four 
witnesses today say we need an extension.
    So, I just have a simple question. Who should we trust, the 
partisan Democrats on this committee and the four witnesses 
they have asked to come in and testify, or the people actually 
doing the job, the career professionals at the Census Bureau?
    Who do you think we should trust?
    Mr. von Spakovsky. Well, I think I would go with the 
professional career senior leadership at the Census Bureau. 
They are the ones who have planned, implemented, supervised, 
and directed the entire Census program and my experience--my 
experience both as a government employee and elsewhere is that 
their judgment is the one that ought to be trusted.
    Mr. Jordan. Probably should trust the people doing the job 
and actually in the field, working with the people in the 
field, versus the partisans on the committee and the people 
they have asked to come in and testify.
    And oh, by the way, I should point out those three 
statements made just two weeks ago were part of the Democrats' 
investigation. So, this wasn't Republicans going out and 
soliciting this information.
    This is Democrats bringing these individuals in under oath, 
and all three of these individuals said, we are on track to get 
the Census done on time. It seems to me that, you know, we got 
this hearing. We got four people coming in who are part of the 
Census who have--who aren't doing it, aren't out there day to 
day working with the people who are who say we need an 
extension.
    Yet, we have the folks doing the job who said no extension 
is necessary; in fact, we are going to be--we are going to be 
done on time. And we are 86 percent--86 percent of the 
households have already been counted in the 2020 Census.
    Now, a different subject, Mr. von Spakovsky, and you talked 
about this in your testimony. Is a citizen's vote diluted when 
illegal immigrants are counted in the apportionment number?
    Mr. von Spakovsky. They most certainly are. By including 
them in the apportionment count, you are devaluing the vote of 
those particular citizens individually. Plus, you are cheating 
particular states out of congressional representation in the 
House when other states get more representatives because of 
individuals who, like tourists, aren't supposed to be counted 
during the Census for apportionment purposes.
    Mr. Jordan. Yes. It is common sense----
    Mr. von Spakovsky. It is.
    Mr. Jordan [continuing]. And it also happens to be the 
Reynolds case, which you cited, I think, in your opening 
statement. Is that right?
    Mr. von Spakovsky. That is right, and most importantly, the 
Franklin v. Massachusetts case, you know, gives the president 
some discretion in determining, with the Commerce Department 
and the Secretary of Commerce and the Census Bureau, who should 
be considered inhabitants of a state, and they made it clear 
that having allegiance and other ties to a state is an 
important consideration.
    Mr. Jordan. And that is exactly--that logic, that 
commonsense is exactly what is behind the president's July 21, 
2020, apportionment memorandum where he says count everyone but 
provide the number of, quote, ``citizens and legal residents'' 
to the president and use that number for the apportionment of 
congressional seats. Is that right?
    Mr. von Spakovsky. That is absolutely correct.
    Mr. Jordan. Yes. And everyone understands that is how it 
should work, anyone with commonsense. The court decisions 
understand that. The only people who are against that are 
Democrats. Isn't that amazing?
    Democrats want illegals to be part of the count to 
determine the number of members each state has in the U.S. 
House of Representatives.
    Now, to me, that is frightening that that is their 
argument, that is their logic--or lack of logic, I should say--
that goes against commonsense, goes against the court ruling, 
goes against the memorandum, goes against what any person you 
go out and talk to on the street would say needs to happen when 
we are counting.
    Count everyone, but for the purposes of apportionment, we 
need to know the number of legal residents and citizens in this 
country. Does that make sense to you, Mr. von Spakovsky?
    Mr. von Spakovsky. Yes, I agree with that 100 percent.
    Mr. Jordan. Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Congressman Clay, you are now recognized.
    Mr. Clay. Thank you so much, Madam Chair, for holding this 
important hearing.
    Let me say to Director Thompson so good to see you again, 
and we had a great working relationship during the 2010 Census. 
And you and I know that the Census is a once in a decade 
government function enshrined in our Constitution and conducted 
since 1790.
    I would hope this would not be the Census taken in our 
Nation's long history that will be followed by an asterisk as 
incomplete or not a full count because of selfish political 
reasons.
    Director Thompson, and let us be very clear about one 
thing. The changes to the apportionment and redistricting 
deadlines was first requested by the Census Bureau and the 
Trump administration before the Trump administration's sudden 
reversal.
    How do we prevent a serious undercount or an incomplete 
Census from occurring at this stage of this process?
    Mr. Thompson. Thank you, Congressman.
    At this point, the Census Bureau simply needs more time to 
do its data collection and to do its post data collection 
process.
    So, for example, the Census Bureau had announced that as of 
September 11, which is tomorrow, they were going to go to what 
they call close out in the entire country for the nonresponse 
followup operation, and what close out means is they send out 
people to get a last resort, last attempt, basic bare 
information on households.
    Like, maybe they will just get a count of people at the 
household or a partial count, or maybe they will only get that 
the household is occupied.
    That is tomorrow, and you think there are some area Census 
offices that the Census Bureau is publishing data for that 
right now are under 50 percent complete with nonresponse 
followup.
    I would think that would be pretty scary, to me. So, the 
Census Bureau needs more time to do the data collection and 
they certainly need more time to do the data processing.
    Mr. Clay. And that is why it is so important that we extend 
these delivery dates. Is that correct?
    Mr. Thompson. Exactly.
    Mr. Clay. Let me go to Mr. Mihm.
    Mr. Mihm, why was it important for the Bureau to delay 
Census operations after the outbreak of the coronavirus?
    Mr. Mihm. Well, sir, like the rest of the country and, 
certainly, like the Congress, the Census Bureau just had to, in 
effect, just shut down for--you know, nationally and not just 
in local areas.
    The spiking of the cases meant that it was very difficult 
to get people on board. This would be the Census takers that 
would be, you know, actually doing the work. It would be--they 
were quite certain that they would not be able to get 
participation from communities or people opening the doors.
    They had to, obviously, stop all of their in-person 
partnership programs and there is only so much you can do over 
WebEx and Zoom, you know, especially with a partnership 
program.
    So, the Census Bureau concluded that there was just no 
effective way at the peak of the COVID outbreak, at least at 
that point in time, that they could carry on operations.
    They then went through a very disciplined process in June 
and a very thoughtful one of using criteria of which offices 
would reopen when, based on local health conditions and the 
availability of PPE for Census takers, and so now they are open 
nationally.
    Mr. Clay. Let me ask you, Mr. Mihm, on July 8, 2020, Al 
Fontenot, the associate director for Decennial Census programs, 
referring to the December 31, 2020, deadline, stated, and I 
quote, ``We are past the window of being able to get those 
counts by those dates at this point,'' end of quote.
    Mr. Mihm, do you agree with the Bureau's public statement 
that the Bureau is past the time where they can produce 
complete and accurate Census data by their current deadlines?
    Mr. Mihm. Sir, I know Mr. Fontenot well. I talk to him 
often, as well as Mr. Jarmin that Congressman Jordan 
referenced, and I have the utmost respect for them.
    I think it will be an enormous challenge for the Census 
Bureau to deliver counts that meet the increasing historical 
demands for accuracy and completeness.
    Each Census has gotten better than the preceding one, in a 
general sense, and that has been a big achievement in an 
environment in which, you know, obviously, society continues to 
change.
    Public willingness to participate has gone down. Yet, we 
are still doing better with each Census. I think the great 
worry that--now is whether or not this would be a Census that 
takes a step back if--due to the compressed timeframes due to 
COVID-19 and the other challenges that they are running into.
    Mr. Clay. I thank you for your responses and, Madam Chair, 
I yield back.
    Chairwoman Maloney. Thank you so much, Representative Clay, 
for your thoughtful questions. And in line with your questions, 
without objection, I would like to place into the record this 
internal document from Census professionals that I released 
along with the other Democratic members last week.
    And in it, the professionals say they need more time and in 
it they say that this compressed schedule creates risks for 
serious errors and being--and would not be discovered from the 
data.
    So, I ask this. Without objection, it is in the record.
    Chairwoman Maloney. I now recognize Congressman Grothman.
    Mr. Grothman. Thank you very much. Can you hear me?
    Chairwoman Maloney. Yes, we can. Thank you.
    Mr. Grothman. Very good. I got a couple of questions here 
for Mr. von Spakovsky, kind of a followup on what my colleague, 
Jim Jordan, had to say.
    It is apparent that one of the reasons people want to 
extend this, and is this what you get from the hearing, is they 
want to find more people and, particularly, it seems, they want 
to find more illegal immigrants.
    Do you--do you kind of get that sense here?
    Mr. von Spakovsky. Well, I don't know about that. I mean, I 
do--I do--look, just like everybody else, I do want an accurate 
count.
    But I think it is very important that aliens who are here 
illegally not be included in apportionment, that they not be 
included in redistricting and that we know the number of 
noncitizens in order to be able to effectively enforce Section 
2 of the Voting Rights Act, which is a very important statute.
    Mr. Grothman. I think it is interesting in what we have 
seen so far here in this hearing. Apparently, people want to 
extend it feel that there are people out there who haven't been 
counted. I mean, I don't know how you can avoid being counted 
because it is so difficult.
    But do you think one of the problems we have is we let this 
thing drag on as you would have people double counted as they 
move about the country?
    Mr. von Spakovsky. Well, that has always been a problem 
with the Census, and I would bring up history here. Look, over 
the past few decades every single Census we have had there have 
been huge cries and criticism saying, oh, it is not going to be 
accurate. People are going to be undercounted. And in every 
single one of those that has proven not to be true.
    Mr. Grothman. OK. I am thinking of over counting college 
students, people who move, that sort of thing. Do you think 
that is in particular where you would find over counting?
    Mr. von Spakovsky. Yes, particularly because, as you know, 
so many students have been--have left their colleges and gone 
home and many of them were still there on April 1 and now may 
not be there and may get double counted.
    Mr. Grothman. Is it possible that if you begin to look for 
people in October or September that you are also going to get 
people who were already counted in August, just people who, in 
general, have moved since that time?
    Mr. von Spakovsky. Most certainly, given the very high 
mobility of the American populace.
    Mr. Grothman. Right. Do you think people who shouldn't be 
here at all are particularly mobile or there is a particular 
danger that they could be over counted? At least, I am under 
the impression a lot of times they do--seasonal work, they may 
want to obey the law and leave the country or whatever. Do you 
think that it is a particular problem with people who are here 
illegally?
    Mr. von Spakovsky. Yes. I think that is a very big risk, in 
particular, because I think people tend to--aliens tend to move 
or leave when they see in the press and elsewhere that there 
are vigorous enforcement efforts going on by the Department of 
Homeland Security in their particular area.
    Mr. Grothman. So, in other words, if we are worried about 
double counting and we begin to allow the Census counting to go 
on, say, into October, do you think disproportionately we will 
be over counting illegal immigrants?
    Mr. von Spakovsky. You know, I don't have enough----
    Mr. Grothman.
    [Inaudible] over counting.
    Mr. von Spakovsky.--to answer that question. But I think--I 
think that is a substantial risk.
    Mr. Grothman. OK. And could you explain again the effect of 
counting illegal immigrants, what effect this will have on 
individual states who may be even aggressively trying to 
recruit illegal immigrants, states that have a 
disproportionately high number, California being an obvious 
one?
    Mr. von Spakovsky. Yes. What it means is that states that 
incentivize illegal aliens to come to their state, particularly 
by putting in sanctuary policies, are using those populations 
to get more congressional seats they are entitled to at the 
cost of other states in the country that lose congressional 
seats which they ought to have because they don't have those 
large numbers of illegal aliens in their state.
    So, it distorts what should be the equitable political 
distribution of the U.S. House of Representatives.
    Mr. Grothman. OK. And you feel--I suppose that is true. 
Does it even create a perverse incentive for states to adopt, 
say, sanctuary policies and say we want to foil our immigration 
laws because we want more illegal people in our state? That is 
what it is encouraging?
    Mr. von Spakovsky. Yes, I think that is exactly what it 
does.
    Mr. Grothman. Wow. That is really something.
    Well, thank you. I will yield the remainder of my time if I 
have any.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    Congressman Lynch, you are now recognized.
    Mr. Lynch. Thank you, Madam Chair. I want to thank you for 
having this hearing and I appreciate the contribution of all 
witnesses.
    May I gently suggest, you know, today's hearing 
questioning--you know, were into this hearing for an hour and 
15 minutes before we got to questions. I know we had some 
technical difficulty, things like that. But if I could gently 
suggest that we might be able to streamline these a little bit. 
That might be helpful.
    I know how hard our staff works, but that is a long time, 
because now I am going to be an hour late for my next hearing, 
and I know there are a number of members on the committee in 
that position.
    So, just if we could kind of figure that out, especially 
where we are starting to get into the normal flow of business 
again it will be problematic.
    To save me a little bit of time and everybody else, let me 
just associate myself with the articulate remarks of the 
gentleman from Maryland, Mr. Raskin, and his opening 
statement--his summation.
    I agree wholeheartedly with the concerns that he has raised 
and I appreciate the energy and the intellect that he has put 
into those remarks.
    I would like to just take a small piece of the problem and 
try to get at that in my question. So I, with Congresswoman 
Pressley, represent the Boston area. We both represent the city 
of Boston.
    We have got a huge number of universities and colleges here 
in the Greater Boston area--Cambridge and all that--and my 
question is about, and maybe, Ms. Carless, you sound to be--you 
sound like you are the person that might be best able to answer 
this question.
    But we have not been able to identify up to now students 
who are normally counted. So, these are not students on campus 
but the students who live--which is the great majority, live 
off campus.
    We have not been able to get them in the count, and part of 
that is we are not getting the full cooperation because of the 
pandemic that we normally get from the universities and also 
the curtailment of going out and getting these nonresponse 
followups, these NRFUs, in the tally.
    So, are there any thoughts that you have regarding how--
what we might be better? And I am sure there are--look, there 
are a lot of college towns all across this country that are 
having the same problem.
    And for that particular difficulty is there--do you have 
any recommendations about, you know, how we might best count 
that demographic?
    Mr. Mihm from GAO, you know, we have also heard from the 
Inspector General of the GAO concerns that off-campus college 
students are being under counted. That is what we are finding 
in our area.
    So, I would just ask the witnesses if they might be able to 
help us out on that. What is a better way to get those people 
in the tally?
    Ms. Carless. Thank you for that question. I do think that 
one thing that could be done is a more concentrated effort on 
actually reaching out to colleges and universities and their 
administration to not only make sure that they are consistently 
sharing the message of the importance of the Census for off-
campus students to make sure that they are being counted but 
also providing them with quick and easy tools because they have 
a lot of things going on.
    And if you give them the message to disseminate so that 
they could tweet it out to their students or, you know, email, 
whatever way they communicate, I think that will make a world 
of difference. But that has not been done to date as far as I 
know.
    Mr. Lynch. Great.
    Mr. Mihm, do you got anything you want to add?
    Mr. Mihm. Yes, sir, just very briefly. There are actually 
two issues here, as you were alluding to. One is the 
enumeration of students that are living in on-campus housing. 
There is about 40,000 of those nationally.
    The Bureau was able to reach out to universities and get 
what they feel is a--at least an OK count on that of about 82, 
81 percent or so response for those.
    The bigger challenge, as you were mentioning, is those that 
are living off campus but yet still attending the university 
and, obviously, the Census Bureau doesn't have access 
necessarily to all that information.
    What they did do is they--the Census Bureau director, in 
the middle of June, sent out a letter to about 1,350 different 
universities saying, hey, can you help us with some of the 
count here.
    They got some good responses, but they also said--had some 
uneven response. They had quite a number of the universities 
wrote back and said, we are not going to participate or 
cooperate, as it were, with helping you get a count of students 
that are living off campus.
    So, to the extent that we could kind of urge those 
universities to participate. That would be very helpful. Also 
the issue, of course, as--you know, as has been discussed 
throughout the hearing is that it is one thing if Census Day 
takes place when students are residing on their campus.
    It is, at least, an easier kind of intellectual point to 
say, hey, this is their usual residence. If they are home and 
have been home for several weeks and are still home, this is 
where--you know, where they would live outside the university, 
it gets tougher to--you know, you can see how there would be 
that--they would be missed in their university counts where, if 
that is where they would normally attend, that is their usual 
residence and where that they should, indeed, be counted.
    Mr. Lynch. OK. My time is exhausted. I do want to say that 
it is wonderful to see Mr. DeSaulnier on the call and you look 
great there, Mark.
    And I yield back. Thank you.
    Chairwoman Maloney. The gentleman yields back. Thank you 
for your remarks.
    We now recognize Representative Gosar. You are now 
recognized.
    [No response.]
    Chairwoman Maloney. Congressman Gosar, you are now 
recognized.
    [No response.]
    Chairwoman Maloney. I believe he is trying to unmute.
    [Pause.]
    Chairwoman Maloney. Mr. Gosar, would you like help 
unmuting?
    OK.
    Mr. Gosar. Sorry about that. How did that--did that hit? 
Can you hear me now?
    Chairwoman Maloney. Yes, we can hear you now.
    Mr. Gosar. Oh, thank you very much, Chairwoman.
    Census data reported that as of yesterday 80.8 percent of 
Arizona is enumerated. This is well below the majority of 
states.
    Yet, just a few days prior to this report, the Census 
Bureau stated that Arizona was just 76.2 percent enumerated. 
This appears to be a very productive spike in a short number of 
days.
    Mr. Mihm, do you think the Census Bureau's decision to move 
enumerators from high-response areas to the Southwest and 
Southeast, which is where a large portion of the nonresponse 
followup is not completed, contribute to this increase in my 
state?
    Mr. Mihm. Sir, I am not able to speak specifically to the--
you know, that particular case. What I can say is that--as more 
as a general rule the Bureau, with each Census, has moved 
Census takers to areas where they have been particularly, you 
know, having problems either recruiting or had a particularly 
high nonresponse workload.
    It is not something that they like to do because, 
obviously, it can be costly and it is also there can be some 
data quality concerns. But it is something that has been tried 
and true as an enumeration technique and has shown itself to be 
successful.
    So, it very well could be a situation in your case as well.
    Mr. Gosar. So now, with that said, what role has technology 
played in the self-response rate, which is five percent higher 
than the Bureau's goal, in the 88.2 percent total enumerated 
rate?
    Mr. Mihm. Yes, it has been a great advantage to the Census 
Bureau and, obviously, a credit to them for pulling it off.
    First, in terms of the initial response, the internet 
option that many of us availed ourselves of worked and pretty 
much without a hitch, and it was convenient, and easy, and it 
was very, very helpful to the Bureau, reduces paper and all the 
rest. So, that was a big and important improvement.
    Likewise, this time being able to use technology in the 
enumeration as part of nonresponse followup is proving itself 
to be quite valuable. There is always, you know, a set of kind 
of technical glitches that take place. But, overall, that is 
proving to be very valuable as well.
    So, I think one of the stories, notwithstanding some 
continuing concerns with the use of technology, but when this 
is over in terms of the fundamental bedrock enumeration is the 
use of technology is going to be a generally positive story.
    Mr. Gosar. So, it really would support broadband throughout 
the country?
    Mr. Mihm. I will take your point, sir. That is not my 
brief. Sorry.
    [Laughter.]
    Mr. Gosar. Sounds good.
    Mr. Mihm, in August your strategic issues team released a 
report outlining concerns with the count. Given the large 
enumerated rates, operational changes made by the Bureau, halt 
in staff layouts, and the statements of confidence in accuracy 
meeting the September 30 deadline made by Mr. Fontenot, Olson, 
and Jarmin, all senior level nonpolitical Census officials, do 
you still stand by your team's report?
    Mr. Mihm. Yes, sir. And as I mentioned, is that I know Mr. 
Fontenot. I know Mr. Jarmin well and I have deep respect with 
them and it is an important data point, their sense of 
confidence and their ability to produce the counts.
    Our concern is the risks that are entailed in that, and 
does that mean that they will not present a count at the end? 
Of course not. I think they will.
    What the challenge will be is the--is it going to be a 
better count than we have gotten in the past because each 
Census has generally gotten better on that, and will it meet 
kind of the standards and the needs of the country for an 
accurate and complete count.
    That is the risk that is entailed in that, a risk that also 
means that they could very easily do it. But there--it is going 
to be an enormous challenge for the Bureau.
    Mr. Gosar. So, one followup in regards to counting Native 
American tribal members, which are very large in my state, like 
the Navajo Nation, which was locked down. Was it easier to get 
a hold of people when they were in lockdown or was it harder?
    Mr. Mihm. On the whole, it is--you know, the issue with 
enumeration in tribal communities has been a historical 
challenge for the Census Bureau. Some of it is dealing just 
with recruitment problems and the initial response rates are--
have tended to be quite low.
    In fact, one of the areas that I know the Census Bureau is 
most concerned about is Window Rock in Navajo Nation that has 
both low response--that is, a high workload for the followup--
as well as experiencing recruiting problems.
    So, there is--there has traditionally been problems there. 
We heard the Governor talk earlier about just the enormous 
challenges of how COVID has just been devastating to many of 
the tribal communities. That, certainly, makes things even more 
difficult both for those communities, obviously, and for the 
Census Bureau.
    Mr. Gosar. Thank you very much, and I yield back.
    [Pause.]
    Mr. Raskin.
    [Presiding.] We are going to recognize the gentleman from 
Virginia, Mr. Connolly, for his five minutes.
    Mr. Connolly. Thank you very much, Mr. Chairman, and I 
thank you and Carolyn Maloney for your diligence on this 
subject.
    And let me also welcome Mark DeSaulnier back. We are so 
glad to have you back. You have been in our prayers and we are 
glad to see you. You are looking great.
    Let me begin, Mr. Chairman, by saying that I find Mr. 
Jordan and Mr. von Spakovsky references to human beings as 
illegal aliens as offensive.
    I don't believe that kind of language ought to be part of 
our discourse in this committee. It demeans human beings and 
makes them things rather than the human persons they in fact 
are. Their status may be up in the air.
    There may be lots of reasons why somebody is undocumented 
in the United States, and that has always been the case 
historically.
    Mr. Mihm and Mr. Thompson, what does the Constitution say 
with respect to who gets counted in the Census?
    Mr. Thompson--Director Thompson?
    Mr. Thompson. Well, thank you, Congressman.
    So, first, let me state that I am not a constitutional 
lawyer. However, the advice that I got when I was at the Census 
Bureau as a career person, then as director, from some very 
good attorneys was that the purpose of the Census was to count 
everyone residing in the United States regardless of 
immigration status.
    Mr. Connolly. Well, you don't need to be a constitutional 
lawyer to read the words. The words are ``all persons.'' Is 
that not correct?
    Mr. Thompson. Yes.
    Mr. Connolly. Yes. So, it doesn't say except for those who 
lack proper papers. Is that correct?
    Mr. Thompson. Yes.
    Mr. Connolly. And has it been the practice of the Census 
Bureau to in fact comply with the words of the Constitution and 
count all persons to the best of your ability?
    Mr. Thompson. Throughout my long experience with the Census 
Bureau, they always counted--did their best to count everyone 
in the United States.
    Mr. Connolly. And, you know, it is also interesting to hear 
Mr. von Spakovsky talk about diluting the votes of those who 
are legally in the United States, and I am glad to hear that 
coming from him and Mr. Jordan because I look forward to their 
joining us in opposing voter suppression that dilutes votes, 
and purging voting rolls and making it harder to vote and 
eliminating early voting or curtailing it, or changing 
precincts arbitrarily to make it hard for especially people in 
minority communities to vote. Those kinds of voter suppression 
issues are to be condemned and I am certainly looking forward 
to their support and that condemnation.
    Mr. Mihm and Mr. Thompson, it has been the practice of the 
Census Bureau to try to get data early to states that undertake 
redistricting early, and two that come to mind are my home 
state of Virginia and the state of New Jersey because we have 
off-year elections next year.
    So, we actually have legislative elections in 2021, and it 
has been the practice historically of the Census Bureau to try 
to get our data early so that we can undertake redistricting 
appropriately in anticipation of those elections next year.
    How might the actions being proposed now in terms of 
curtailing the Census or wrapping it up early--how might that 
affect the ability of the Census Bureau to get accurate data to 
those two states?
    Mr. Mihm. Mr. Connolly, thank you. As a resident of 
Virginia, obviously, this is an issue--you know, a very 
important issue for me personally.
    We have asked the Census Bureau that and we understand that 
they are due to come out with a plan within the next couple of 
days as to how they are going to be able to deliver the 
apportionment or the--rather, the redistricting data is that 
one of the tradeoffs that they are making in order to get the--
due to the cutting of the amount of time that is available for 
processing to get the apportionment data is they are focusing 
only on apportionment or almost exclusively on apportionment 
data at this point.
    There are other data, obviously, that is important for 
redistricting and, you know, and, obviously, needed at a much 
lower geographic level. That is something in which they said 
that they are going to be providing a plan within the next few 
days, I understand, on that.
    That is something that we are going to be looking for and, 
obviously, we would keep you and your office and the committee 
informed on any observations we have on that plan.
    Mr. Connolly. I just think it is important, in my final 
three seconds, to underscore that there are some states that 
are more affected immediately than others, and Virginia and New 
Jersey are two of them. I think Kentucky may also be.
    So, thank you so much for that observation, and I yield 
back, Mr. Chairman.
    Mr. Raskin. Thank you very much, Mr. Connolly.
    We will now recognize Mr. Palmer for his five minutes of 
questions.
    Mr. Palmer?
    Mr. Palmer. Thank you, and I too welcome Mr. DeSaulnier 
back to the committee. I have been greatly concerned for him.
    One of the things I want to point out is we have started 
talking about the unauthorized population. The unauthorized 
immigrant population, according to Pew, has stabilized over the 
last decade or so, and but there is--I think they also found a 
consistent amount of transiency.
    That is, people coming in and out of the country, staying 
for a short amount of time and then returning to their 
countries of origin.
    Pew reports that to be about 20 percent are less--are here 
less than five years and 40 percent are here less than 10 
years, and that doesn't include noncitizens who are here 
legally short term such as college students and guest workers.
    So, I have some questions here that I would like to ask to 
Governor Lewis. Actually, I will start with Ms. Carless. Should 
we allow noncitizens to run for office?
    Ms. Carless. The Constitution would not allow noncitizens 
to run for office.
    Mr. Palmer. I know what the law is. I ask you--and these 
are yes or no questions--should we allow noncitizens to run for 
office?
    Ms. Carless. No. We should uphold the Constitution.
    Mr. Palmer. OK. Should we allow noncitizens to make 
campaign contributions to political candidates?
    Ms. Carless. No.
    Mr. Palmer. Should we allow noncitizens to vote in our 
elections?
    Ms. Carless. No.
    Mr. Palmer. OK.
    Governor Lewis, the same questions. Should we allow 
noncitizens to run for office?
    Is he still with us?
    Mr. Lewis. I am. Thank you, Congressman.
    And as a Native American leader, we know--we have a history 
of not being considered citizens, even though we were the first 
Americans.
    Mr. Palmer. Well, sir, I am just asking you a 
straightforward yes or no question. Should noncitizens be 
allowed to vote? Should they be allowed----
    Mr. Lewis. I would defer----
    Mr. Palmer [continuing]. To run for office or should they 
be allowed to make campaign contributions?
    Mr. Lewis. I would defer to the Constitution and what the 
Constitution says----
    Mr. Palmer. Then your answer would be no. And thank you for 
that.
    Mr. Lewis [continuing]. Respectfully.
    Mr. Palmer. I also have Native American heritage as well so 
I really appreciate you being here.
    I would also ask that to Mr. Thomas. Should we allow--I 
think everybody is going to say no. Is that--is that fair to 
say, Mr. Thompson and Mr. Mihm?
    Mr. Thompson. I think that is a good assumption, 
Congressman. I would uphold the Constitution.
    Mr. Palmer. OK. Then let me ask this. If we don't allow 
them to run for office, if we don't allow them to make campaign 
contributions, and if we don't allow them to vote, why would we 
count them for apportionment purposes, particularly considering 
the transient nature of so many of them?
    I mean, 20 percent who are here less than five years, that 
is over 2 million people and that is not counting the people 
who are here legally on a short-term basis. Like I said, it is 
college students and guest workers.
    So, does it--does it make sense that we would count them 
for apportionment when so many of them won't even be here and 
be so--and that would be so disruptive of our system of 
apportionment that we literally would deny representation to 
citizens who are here legally.
    Mr. von Spakovsky, could you respond to that?
    Mr. von Spakovsky. Well, I agree with you. They should not 
be included in apportionment. If they can't vote, which I don't 
believe they should, if they can't make campaign contributions, 
and if they can't run for office, there is no reason to include 
them in apportionment.
    And I might point out that, in fact, in 2015 the 
congressional Research Service actually did a study saying if 
apportionment after the 2010 Census had been based on citizen 
population, if they had not included noncitizens, Louisiana, 
Missouri, Montana, North Carolina, Ohio, Oklahoma, and Virginia 
would all today have an additional seat in the U.S. House of 
Representatives. They have been cheated.
    Mr. Palmer. Chairman Raskin, I want to--Chairman Raskin, I 
want to suspend my time to ask how much time I have left 
because the clock disappeared.
    Mr. Raskin. Counting 24 seconds, but we will be liberal 
with that as with all things, Mr. Palmer. The floor is yours.
    Mr. Palmer. You are always very kind to me and I am 
grateful for that. Thank you, sir.
    All right. The reason that we don't allow noncitizens to 
participate in our elections is because it could have a 
deleterious impact on our ability to govern ourselves as a 
representative republic.
    That is the reason why we shouldn't count noncitizens for 
apportionment because it will have a very negative impact on 
our ability to continue this great experiment in representative 
government.
    Again, I thank the chairman for extending my time. Your 
kindness is noted and appreciated, and I yield back.
    Mr. Raskin. Thank you very much, Mr. Palmer, for those very 
interesting questions.
    I will now recognize myself for my five minutes of 
questions and, Director Thompson, I want to start with you. 
Some people seem to be a little cavalier, at least to my ears, 
about losing three percent of the population in a Census count.
    How many people is three percent of the American 
population?
    Mr. Thompson. Well, Congressman, right now there is about 
340 million, 350 million people in the United States. So, three 
percent of that would be millions of people.
    Mr. Raskin. It would be around 10 million or perhaps over 
10 million people, right?
    Mr. Thompson. Exactly.
    Mr. Raskin. And if you look at our committee, I think 10 
million people is more than 16 of the states that are 
represented in our committee.
    I just went through--I saw Alabama would be less than that, 
Arizona, Kentucky, Louisiana, North Dakota, South Dakota, South 
Carolina, Tennessee, Texas, West Virginia, Wisconsin, my home 
state of Maryland, the District of Columbia and on and on.
    What do you--so three percent may not seem like a big deal 
although, of course, we know lots of elections are settled by 
three percent of the vote.
    But what do you think about the proposition that a group of 
Americans the size of these states and, in some cases, 
combinations of them, 10 million is more than the combined 
populations of Tennessee, West Virginia, and North Dakota?
    Well, what do you make of the proposition that that is no 
big deal and we should just go ahead and blow the whistle and 
stop counting and run the risk that millions of people might 
not be counted?
    Mr. Thompson. So, I think that would be really bad to miss 
that many people, especially at the national level, and I would 
say that it wouldn't be the same in every state. It would vary 
considerably. I would think the issues right now that would be 
at greatest risk are the issues where----
    Mr. Raskin. It could hit every state, right? It could hit 
all of our states.
    Mr. Thompson [continuing]. It would affect every state, 
some more than others. In fact, in those states right now that 
have very low completion rates for nonresponse followup I think 
they are at--they are at great risk right now.
    Mr. Raskin. All right. Well, let me followup with this 
because I feel like we have been kind of speaking past each 
other today the way we sometimes do.
    But most of the experts that we have heard from as well as 
this document that the chair referred to that was released by 
the Census Bureau from August 3 say that the Census Bureau 
needs more time to do an accurate count. And yet, our 
colleagues on the other side of the aisle come back and say 
that we shouldn't be counting undocumented aliens.
    Isn't that, basically, changing the subject? Regardless of 
where you stand as a matter of constitutional law or statutory 
law on their argument that in future Censuses undocumented 
aliens shouldn't be counted, for the first time in American 
history, regardless of where you stand on that, isn't that an 
irrelevant distraction from what we are really here to talk 
about today, which is whether the Census Bureau needs more time 
to count millions of Americans who may be lost if we don't give 
them an extension?
    Mr. Thompson. I think that is the interpretation you are 
making, Congressman.
    Mr. Raskin. Well, it is definitely the interpretation I am 
making, but I guess what I am saying is, is there anything 
logically connected between the two? I mean, you know, I can go 
to some of the other witnesses who might feel free to opine on 
that. I don't know.
    Well, let me continue. Let us see. The Census Bureau 
document that was referenced by the Chairwoman Maloney was 
dated August 3 and Census officials warned Commerce Secretary 
Wilbur Ross that a push to deliver Census data before December 
31 would cause data products to be, quote, ``negatively 
impacted.''
    They said that the loss of activities eliminated under the 
new schedule would reduce accuracy. It would create risk for 
serious errors not being discovered in the data and so on.
    Mr. Mihm, let me come to you. Does GAO's independent 
analysis also show that the compressed procedures under the new 
schedule in the midst of this pandemic would reduce accuracy 
and create a risk of serious errors not being discovered?
    Mr. Mihm. Yes, sir, is that we are--we are concerned both 
from the pressure that is put to get out in the field--you 
know, the reduction by one month from the end of October to the 
end of September and the reduction of about from 150 days to 
about 90 days in order to do the processing.
    Both of those--either one of them would be a very difficult 
lift. The two of them together could be an extraordinary one 
for the Census Bureau.
    One other point, just very quickly, sir, is that you 
mentioned about the 10 million is that, obviously, the salient 
point there is that it is not evenly distributed or would not 
be evenly distributed across the country.
    If it were, we could probably--we could probably live with 
it and Census geeks like, you know, Mr. Thompson and myself 
would worry about it. But the problem, of course, is that it is 
not evenly distributed. It is disproportionate in certain 
communities, in certain localities, geographic and demographic 
areas.
    So, that is the big challenge with--in terms of the 
distribution of Federal funds, in terms of the appropriate 
distribution of political power and representation.
    Mr. Raskin. I got you, and we are not going to lose an 
entire state but we could have a state lose an entire 
congressional district and it could affect state legislative 
redistricting and, of course, the distribution of money.
    Let me just ask you, Director Mihm, before I turn it over 
to Mr. Comer. Do you agree that the contested question about 
whether people should be counted even if they can't vote like 
undocumented people or children or prisoners and so on, that 
that question doesn't need to be resolved in order to deal with 
the analytically distinct question of whether the Census Bureau 
needs more time to count all Americans?
    Mr. Mihm. The short answer to that is yes, sir, in the 
sense that, you know, that our, you know, obviously, is a 
support agency to the Congress. We don't have a position on the 
policy question about, you know, who should be included or 
included in----
    Mr. Raskin. It is a separate issue. Thank you very much, 
Mr. Mihm.
    Mr. Mihm. That is a separate issue for us. What our concern 
is the operational implications.
    Mr. Raskin. I appreciate that. I am going to recognize Mr. 
Comer.
    Chairwoman Maloney. [Presiding.] The gentleman's time has 
expired. The gentleman's time has expired.
    Mr. Raskin. I recognize Mr. Comer for his five minutes of 
questions.
    Staff. Mr. Rouda. Mr. Rouda.
    Chairwoman Maloney. OK. Congressman Rouda is now 
recognized.
    Staff. Mr. Comer, we understand
    [Inaudible]
    Mr. Rouda. Thank you, Madam Chairwoman.
    Chairwoman Maloney. Mr. Comer wanted to defer to Mr. Rouda, 
to another Democratic witness.
    So, Mr. Rouda, you are now recognized.
    Mr. Rouda. Thank you, Madam Chairwoman. Can you confirm you 
can hear me?
    Chairwoman Maloney. We can hear you.
    Mr. Rouda. Great. Thank you very much.
    As we know, the impacts of the Census are wide reaching. 
Census data affects congressional representation and the 
allocation of trillions of dollars in Federal funding. Earlier 
this year, we learned the damage that could be done to our 
communities by just a one percent under count.
    In fact, in Orange County in my district, we learned that 
if there is a one percent under count of low-income students, 
schools could lose over a quarter million dollars in Federal 
funding, the equivalent of all the textbooks that nearly 1,000 
students would need in an entire school year.
    And a one percent under count of low-income workers in my 
district means a loss of approximately $160,000 in Federal 
funding for job training programs, apprenticeship programs, and 
career counseling.
    Clearly, rushing to complete the Census and eliminating 
crucial data and quality control measures would have real 
consequences for students and workers across the country.
    And it is not just the distribution of Federal funds that 
could be impacted by an incorrect or incomplete 2020 Census. 
The area that has the most devastating effects is on the 
American businesses and the U.S. business community has come 
out strongly in favor of extending the statutory deadline for 
completing this Census.
    In an August letter, 87 business groups and companies wrote 
that population and demographic data from the Census is, quote, 
``vital to businesses across America to promote economic 
development, identify potential customers, and create jobs.''
    They went on to say that rushing the Census would, quote, 
``drastically undermine the quality of the data that we rely on 
so dearly and harm every state, every business, and every 
industry in the country relying upon resulting data.''
    Madam Chairwoman, I ask unanimous consent to have this 
letter into the record--entered into the record.
    Chairwoman Maloney. Without objection.
    Mr. Rouda. Thank you.
    Mr. Thompson, this letter from members of the business 
community specifically mentions the American Community Survey 
and the Economic Census as two Census Bureau programs on which 
it, quote, ``directly depends.''
    Is it accurate that the data from the Decennial Census is 
used for both of these programs?
    Mr. Thompson. Well, the data for the Decennial Census is 
used somewhat for the Economic Census. But it is critical for 
the American Community Survey to be fully represented. If the 
Census data are carried forward each year in the form of 
population estimates and those data are used to make sure that 
the American Community Survey is very representative.
    So, if the Census data were to have a 10 percent undercount 
in it, for example, that would be carried forward and that 10 
percent underrepresentation would be reflected in the American 
Community Survey for 10 years.
    Mr. Rouda. So, what you are basically saying is if we don't 
get this right, businesses across the United States--big 
businesses, medium-sized businesses, small businesses--who are 
relying on the quality of this data being correct will be 
making business decisions that could be wrong because the data 
is wrong, which could cost cities and states millions and 
millions of dollars in tax revenue.
    In addition, it could put these companies at risk of making 
poor decisions. Is that correct?
    Mr. Thompson. That is correct, Congressman.
    Mr. Rouda. And that is why Chambers of Commerce from across 
the country, including the California Chamber of Commerce, the 
Texas Chamber of Commerce, the West Virginia Chamber of 
Commerce, the Minnesota Chamber of Commerce, and Commerces all 
in between across our great country join this letter to express 
their concerns about a rushed and inaccurate Census.
    Governor Lewis and Ms. Carless, would it be fair to say 
that a rushed Census stands to have a negative impact on 
businesses in your communities?
    Governor Lewis, would you like to go first?
    Mr. Lewis. This is Governor Lewis.
    Yes, definitely. For tribes and for the Gila River Indian 
Community, we are relying on businesses for 75 percent of our 
revenue, and that was especially critical as we are moving 
through the pandemic.
    This would have a devastating effect on the nation-building 
economy that we are trying to maintain through this pandemic 
and, of course, the numbers are going to be for a decade and 
this would definitely have--it would have a devastating effect 
not only to the Gila River Indian Community but to tribes 
across Indian Country.
    Mr. Rouda. Thank you.
    Ms. Carless?
    Ms. Carless. Thank you.
    I would co-sign with the other witness. It would have a 
devastating effect on North Carolina as well. Our business 
community definitely relies on accurate Census data in regards 
to where to place factories or as long as how to plan for 
growth and jobs in our community. So, it would have a 
devastating impact.
    Mr. Rouda. Well, thank you very much. This is just another 
manufactured crisis by this administration, and I yield back.
    Chairwoman Maloney. The gentleman yields back.
    And also with Representative Comer's request I am going to 
another Democratic representative.
    Debbie Wasserman Schultz, you are now recognized.
    Please unmute yourself.
    OK. She is working on it.
    Ms. Wasserman Schultz. Thank you, Madam Chair. I am sorry 
that wasn't the problem. I was just transitioning to the car. 
So, if you give me one second and I will
    [inaudible].
    OK. OK. Thank you so much.
    In Florida, we have faced an uphill battle to counteract 
the Trump administration's effort to depress Census response 
rates in minority and immigrant communities.
    In the most recent figures available, Florida ranks 43d 
among states in the percent of the population that has been 
enumerated.
    The self-response rates in south Florida communities that I 
represent are behind where they were in 2010. We are at serious 
risk of an undercount that will have devastating consequences 
for rural, Black, and immigrant communities, the very 
Floridians that are most in need of political representation 
and Federal dollars, especially in the aftermath of the COVID-
19 pandemic.
    Mr. Mihm, in its August report the GAO raised concerns 
about the risks created by the late design changes to the 2020 
Census. In particular, the report states, and I quote, ``We 
have previously reported that late design changes can introduce 
new risks: delays, the resulting compressed timeframes, 
implementation of untested procedures, and continuing 
challenges such as COVID-19 that escalate Census costs and 
undermine the overall quality of the count.''
    Mr. Mihm, in your view, was the decision in early August to 
cut a month out of field operations and two months out of data 
processing a, quote, ``late design change?''
    Mr. Mihm. Yes, ma'am.
    Ms. Wasserman Schultz. OK. And what are some of the risks 
that arise out of the Census Bureau making these scheduled cuts 
in August?
    Mr. Mihm. I think there are actually two of them. One is 
that the--certainly, the schedule compression--the reduction in 
field work by one month and the reduction in over 60 days in 
terms of the processing at the back end to make sure that there 
are no errors or problems with the data that could be corrected 
before the apportionment counts go out.
    So, those were the two major areas that we expressed 
concern.
    Ms. Wasserman Schultz. OK. By contrast, Mr. Mihm, I want to 
ask about why congressional action to extend the statutory 
deadlines is a different type of change. Do you consider giving 
the Census Bureau an extension to finish field operations and 
data processing the type of, quote, ``late design change'' that 
the GAO has warned about?
    Mr. Mihm. I am sorry, ma'am. I regret I didn't hear the 
first part of your question.
    Ms. Wasserman Schultz. OK. What I said was, by contrast, I 
want to ask why congressional action to extend the statutory 
deadlines is a different type of change. Do you consider
    [inaudible] design change.
    [inaudible] as part of it?
    Mr. Mihm. Well, certainly, you know, the Census Bureau has 
told us that, you know, that to the extent that they would get 
additional time or that--and that was certainly the plan that 
they had been operating on up until the end of July, the very 
first part of August, that they would have an additional four 
months, that would allow them to be in the field through the 
end of October as they had planned. It would allow them to 
begin or have the processing run into January as--again, as 
they had planned on that.
    Ms. Wasserman Schultz. Just to clarify what I mean, it 
sounds like your more detailed answer indicates no, it is not 
what they mean by a late design change. Is that right?
    Mr. Mihm. Well, the late design changes that--the ones that 
cause concern are those that, you know, end up compressing the 
time or that introduce new and untested procedures.
    Obviously, to the extent that they have some more time that 
would give them an opportunity to go through the data, to have 
additional time in the field, and that had been the plan that 
the Census Bureau had been operating under for a number of 
months.
    Ms. Wasserman Schultz. Thank you.
    Mr. Thompson, you
    [inaudible] the design of the 2020 Census. Can you
    [inaudible]
    Mr. Thompson. I am sorry, Congressman. I didn't catch what 
you--Congresswoman, I didn't catch what you said.
    Ms. Wasserman Schultz. OK.
    [Inaudible.]
    Chairwoman Maloney. We are having technical--we are having 
technical difficulties. Debbie, we can't even hear you. You are 
going in and out. So, I think the gentlewoman's time has 
expired.
    Congresswoman Miller, you are now recognized.
    Congresswoman Miller?
    Mrs. Miller. Unmuted now. Can you hear me?
    Chairwoman Maloney. We can hear you.
    Mrs. Miller. Good, because----
    Chairwoman Maloney. Yes, we can.
    Mrs. Miller [continuing]. I am having technical issues as 
well.
    Chairwoman Maloney. Yes, a lot.
    Mrs. Miller. Thank you, Chairwoman Maloney and Ranking 
Member Comer and all of you witnesses for being here today to 
discuss the Census.
    As the Census is only a few months from being legally 
required to be completed, my district could have been a 
representation of how difficult it can be to get an accurate 
account. Four of my 18 counties in the district have 100 
percent of the population living in hard-to-count 
neighborhoods. I have spent the last two years visiting each of 
these counties and I can tell you from firsthand experience how 
truly rural they are.
    West Virginia is one of the states that is a success story 
for the Census Bureau and their nonresponse followup operation. 
After having one of the lowest self-responses rates in the 
country, West Virginia has had over 97 percent of all 
households enumerated, ranking second among all the states.
    With 21 days left to finish the enumeration, the Census 
workers in my state are doing a fantastic job and I applaud the 
Census Bureau for diligently completing this important duty in 
a particularly difficult area to count.
    However, instead of giving the Census Bureau the time 
needed to implement its strategies, this committee seems to 
have spent our hearings attacking our duly elected president 
and his constitutional and lawful actions to protect the 
Census, our elections, and accurately apportioning 
congressional seats, and it would directly affect me.
    American citizens deserve fair and accurate representation 
in Congress and it is the duty of the Federal Government to 
ensure apportionment is completed correctly. Counting people 
living in the United States illegally in apportionment is an 
attack on our democratic institution and seeks to take away the 
voice of the American citizens.
    I strongly support what President Trump has done in trying 
to protect the sanctity of our congressionally mandated 
apportionment process, and I urge my colleagues to stop 
hindering the Census any further.
    Mr. von Spakovsky, why should Americans be concerned about 
vote dilution?
    Mr. von Spakovsky. Look, vote dilution is something that 
all Americans should be concerned about. Almost all of the 
cases filed under the Voting Rights Act, under Section 2 of the 
Voting Rights Act over the last three decades, particularly 
when it comes to redistricting, have been vote dilution cases.
    We don't want the votes of individual Americans, no matter 
what their race or ethnic background, from being diluted and 
devalued and to have--to be less of a value than that of other 
voters.
    But that is exactly what happens when you include 
noncitizens, when you include aliens not only in the 
apportionment process but also in the redistricting process, 
and this is particularly true also--you can see the importance 
of this in the lawsuits that have been filed, as I have said 
before, by both Republican and Democratic Justice Departments 
to enforce Section 2 of the Voting Rights Act.
    When they are coming up with a remedy which often is a 
majority minority district, one which minority voters are 
actually a majority of the voters, they try to use citizen 
voting age population because otherwise they are not going to 
be able to put in an effective remedy and that is why it is 
extremely important that the population count, yes, be accurate 
but that we also have a count of the citizens and noncitizens 
in the country.
    Mrs. Miller. Well, how does the president's memorandum on 
apportionment mitigate the damage of vote dilution?
    Mr. von Spakovsky. Well, you know, he has issued two 
memorandums, one directing the entire executive branch to 
forward all records that they have on citizenship status to the 
Census Bureau, and second, to not include--it is not that we 
are not going to count aliens who are in this country but they 
should not be included in the apportionment process.
    And as I have said, that is within his statutory authority. 
It is within the precedent set by the Supreme Court.
    And if I may just say very quickly in response to an 
earlier comment, the term ``illegal alien'' is the correct 
legal term. That is a term used in Federal immigration law and 
it is a term used in U.S. Supreme Court decisions.
    Mrs. Miller. What issues do you see arising because this 
administration was blocked from asking the constitutional 
citizenship question on this year's Census?
    Mr. von Spakovsky. Well, look, the big issue is will the 
records produced by the executive branch produce enough 
information to give us an accurate count of the noncitizens in 
the country.
    From everything I have seen, I think the answer to that is 
yes. It is amazing how much data and information the Federal 
Government has on the American population already on individual 
citizens and noncitizens, and I think the initial estimate was 
they would have information on citizenship status on at least 
90 percent of the population and they have apparently been 
working to get that as close to 100 percent as possible.
    Mrs. Miller. OK. Thank you. I yield back my time.
    Chairwoman Maloney. The gentlelady yields back.
    Congressman Sarbanes, you are now recognized.
    Mr. Sarbanes. Thank you very much, Madam Chair. Can you 
hear me?
    Chairwoman Maloney. Yes, we can.
    Mr. Sarbanes. I appreciate the hearing. Obviously, a number 
of us, as you can tell, are alarmed at this prospect of 
shortening the time for the nonresponse followup from the end 
of October to the end of September and also the transmission--
the collection and transmission of the apportionment data where 
we and the Trump administration in its original posture felt 
that extending those deadlines to the end of April and the end 
of July, respectively, made a lot more sense.
    So, here is the question. Help me understand this, Mr. 
Thompson, and I may go to Mr. Mihm as well. But what is the 
down side of keeping the collection or the response effort 
underway through the end of October and what is the down side 
or risks associated with the extension in terms of the 
apportionment data being collected and analyzed and transmitted 
at those later dates in 2021?
    Because I haven't heard anybody point to a significant risk 
or downside or negative to allowing for the nonresponse 
followup to continue through the end of October or to allow the 
apportionment data to be transmitted at those later dates.
    So, Mr. Thompson, do you see any significant negatives 
associated with that?
    Mr. Thompson. Thank you, Congressman. No, I don't see any 
negatives. That, in fact, is the initial plan that the Census 
Bureau career staff had developed in the face of dealing with 
the COVID-19 pandemic. So, it would be implementing their plan.
    Mr. Sarbanes. And, Mr. Mihm, do you see any significant 
negatives with extending that--those deadlines?
    Mr. Mihm. I agree--Congressman, I agree with Mr. Thompson 
that that had been the Bureau's plan to extend the dates, you 
know, those four months and had been behind the request for 
legislative relief on that.
    The only, as it were, downside or at least something that 
we have urged the Bureau to make sure that they consider and do 
evaluations on is the notion of recall bias. Obviously, the 
farther you get away from Census Day the problems of memory and 
recollection about where people were--may have been residing 
and who else was in the household become an issue for them.
    We just believe that that ought to be looked into. But 
nevertheless, as Mr. Thompson said, the Bureau's plan was to 
have that additional time in order to--and that was, on 
balance, the appropriate way to go that they had concluded.
    Mr. Sarbanes. Well, and the original timeline in terms of 
collecting the data, having the questionnaires responded to, 
was the end of October. So, it was, certainly, within the 
window of what was considered needed from an accuracy 
standpoint. The move has been----
    Mr. Mihm. Yes, sir.
    Mr. Sarbanes [continuing]. The end of October to the end of 
September, correct?
    Mr. Mihm. Yes, sir. Yes, sir.
    Mr. Sarbanes. Right. So, if you look at the ledger here, on 
the side of the ledger that says down sides and risks 
associated with carrying the followup effort through to the end 
of October and making sure that the apportionment data goes 
according to that more extended deadline, under that column in 
terms of risks and down sides to that approach there is nothing 
in that column.
    In the other column in terms of risks and negatives and 
challenges posed by trying to move these deadlines up in a 
significant way, you have a whole litany of things that, Mr. 
Thompson, you had detailed and, Mr. Mihm, you have detailed 
some of those as well.
    So, it is not even a close call here in terms of how we 
should be handling it and it is, clearly, a call that the 
administration recognized itself when it initially asked for 
that extension in terms of the apportionment data.
    The other thing I want to point out is sometimes Censuses 
are conducted on the cusp of a Presidential election and 
sometimes they are not, and this is at the moment of a 
Presidential election.
    And whenever you have that, the day after the election, 
regardless of whether in this case the incumbent stays in or 
there is a new president coming in, there is always a lot of 
changeover of personnel because people who have been there for 
four years decide to move on, et cetera.
    It strikes me that this is the worst time to be taking time 
and flexibility away from the Census Bureau in view of that 
particular dynamic that you could possibly choose.
    So, for all those reasons, we need to keep that deadline 
for the response followup. We need to have that extend through 
the end of October and we need the collection of the 
apportionment data and its transmission to be extended into 
2021, which is what we are trying to do to make sure that the 
Census is conducted in a fair and accurate way.
    With that, I yield back my time.
    Chairwoman Maloney. Thank you for your question.
    Congressman Comer, you are now recognized.
    Mr. Comer. Thank you, Madam Chair. My questions will be--I 
will refer to Mr. von Spakovsky.
    First, I want to thank you for testifying today. You are an 
expert on constitutional and voting rights law. I also want to 
emphasize a point I made in my opening statement.
    Career Census Bureau staff have told the committee in 
transcribed briefings that as of now the 2020 Census can be 
accurately completed by September 30. These career staff are 
moving heaven and earth to ensure an accurate Census.
    I wish the hearing today supported the effort of the 
hardworking women and men at the Census Bureau. But that is not 
the purpose of this hearing.
    The hearing today is a coordinated assault on the 2020 
Census from the Democrats and their left-wing allies who are 
suing the administration.
    This weekend a liberal judge in northern California issued 
a temporary injunction preventing the administration from 
executing a complete Census count by September 30.
    Are you familiar with this injunction?
    Mr. von Spakovsky. I am.
    Mr. Comer. Do you believe, given the current circumstances, 
a nationwide injunction is merited?
    Mr. von Spakovsky. I do not. In fact, I think the judge was 
going outside of her very limited jurisdiction and her 
particular district in California.
    Mr. Comer. The current statute has strict deadlines for 
delivering an apportionment count to the president and 
redistricting files to the states.
    To my knowledge, Congress has not enacted and the president 
has not signed any legislation changing these deadlines. What 
legal basis is there to challenge the current statute when 
Congress has not acted to change the statutory deadline?
    Mr. von Spakovsky. Well, I don't think there is one. In 
fact, that is why I think this judge is acting in a way that is 
not justified by the facts or the law that she has in front of 
her.
    Mr. Comer. If this judge issues a longer-term injunction, 
it will mean the Census Bureau and the judge himself will be 
violating the law. Is that correct?
    Mr. von Spakovsky. That is right.
    Mr. Comer. And you have seen a lot of legal interest in the 
2020 Census, obviously, including a lawsuit against adding a 
citizenship question to the 2020 Census. This case was 
ultimately decided last year by the Supreme Court.
    Why did the Supreme Court recently rule with regard to the 
constitutionality of the citizenship question being asked in 
the questionnaire?
    Mr. von Spakovsky. Look, that decision was misinterpreted 
and, I think, misreported by a lot of media. It is very 
important to understand the Supreme Court said that it is both 
constitutional to have a citizenship question on the Census and 
that the executive branch has the statutory authority to ask a 
citizenship question.
    The only thing that they decided at the end was that they 
had not gone through the correct procedures under the 
Administrative Procedure Act to explain why they were adding a 
citizenship question. I think that was in error.
    But the point is, constitutionally and statutorily, you can 
have a citizenship question on the Census. In fact, we have had 
one on there starting in 1820.
    Mr. Comer. Well, I think that is a very important point and 
that is counter to what several of my colleagues on the other 
side of aisle have been saying throughout these Census 
hearings. So, I appreciate you bringing that--bringing that 
out.
    Do you believe the Supreme Court ruling on administrative 
process grounds is problematic?
    Mr. von Spakovsky. I think it is very problematic. In fact, 
I agree with the dissent written by Clarence Thomas in which he 
said that once the majority determined it was both 
constitutional and statutorily legal, that should have been the 
end of the analysis and I think he is exactly right about that.
    Mr. Comer. One last question. Is it fair to say this 
decision opens new avenues for legal challenges based on 
procedural grounds?
    Mr. von Spakovsky. Yes, I think it does and I think it is a 
misinterpretation of the APA. And I might just quickly point 
out, look, the American Community Survey, which the Census 
Bureau sends out every year, it currently has a citizenship 
question on it.
    Mr. Comer. Exactly, and I said my last question. I am just 
going to throw out one more because there have been so many 
different statements between the Republicans and Democrats on 
this congressional reapportionment issue, which the president 
supports and I personally support.
    But, sir, is it a fair statement to say that if persons 
here illegally are counted toward congressional apportionment, 
then states that have promoted sanctuary cities would be 
rewarded with more congressional representation?
    Mr. von Spakovsky. Yes, that is, clearly, the case.
    Mr. Comer. Well, that is a big difference in ideology 
between the Republicans on this committee and the Democrats on 
this committee.
    But, regardless, I appreciate your testimony here today and 
thank you again for being here.
    With that, Madam Chair, I yield back the remainder of my 
time.
    Chairwoman Maloney. Thank you. The gentleman yields back.
    Congresswoman Speier, you are now recognized.
    Jackie Speier?
    Ms. Speier. Jackie Speier, but thank you, Madam Chair.
    [Laughter.]
    Ms. Speier. You know, I think that old adage about not 
changing the spots on a leopard really applies here. What we 
have seen by President Trump from his January 26 recognition 
that the COVID-19 pandemic was serious and troublesome but 
refused to make that apparent to the American people, to his 
efforts to undermine the FDA, the CDC, and the intelligence 
community and to bend their decisionmaking to his interests has 
taken many persons who were in professional positions within 
our various departments, and either they become whistleblowers 
or they bend to the president's wishes.
    So, the fact that on August 3 a memo to Secretary Ross is 
provided that says the accuracy and completion of the Census 
will be jeopardized if we speed up this process should give all 
of us pause.
    But my colleagues on the Republican side feel compelled not 
to focus on what the issue of the day is but on apportionment 
and reapportionment.
    The data processing has taken anywhere from 140 to 185 
days. This administration now is going to reduce it to 92 days.
    So, Mr. Mihm, in your analysis by the GAO, is cutting 60 
days out of data processing schedule going to increase the risk 
of the inaccuracy and incompleteness of the Census?
    Mr. Mihm. The short answer, ma'am, is yes. I mean, one of 
the things to keep in mind, and we had a bit of a discussion--
Mr. Thompson talked about his earlier--was the importance of 
the subject matter review process within the Census Bureau and 
this is where experts that know the data within individual 
states after there has been a data run have the opportunity to 
step back and see if there is any anomaly due to sex ratios 
looked at. Is there a population change that can't be explained 
by other ways?
    To just give an indication of this, there were 46 reruns 
that they had to do of state data out of 52 states and 
territories in 2010, and so this is not something that is just 
as an aside that has to take place with that.
    They also use this opportunity to clean up the data. One of 
the things that they do is they look for where there are 
multiple responses from the same household. That is an 
important part of their data strategy or making sure that they 
get complete and accurate data.
    In 2010, they had 14 million housing units, about 10 
percent of the housing units, that had to be de-duplicated. So, 
these aren't just numbers along the margin that are taking 
place. These are very important steps that the Bureau goes 
through.
    One final thing is that much of the data processing and the 
cleanup there at the end has to be sequential in nature. It is 
not something that they--some of it can be done at the same 
time, but a lot of it has to be done sequential that they can't 
move to a second step until they have done the first.
    So, all of this puts--this time compression is--does 
increase the risk.
    Ms. Speier. So, that being the case, what is the 
motivation, in your estimation?
    Mr. Mihm. Ma'am, I really can't speak to the--you know, the 
motivation. I mean, we look at the operational decisions or 
implications of decisions that are being made, and motivations 
for how and why things get done is a little bit beyond my 
remit.
    Ms. Speier. I understand that. But I am still trying to 
understand why we want the Census data that is relied on for 
the next 10 years to be incomplete or inaccurate, and how does 
that help us, any of us, Republicans or Democrats alike?
    Is there a basis on which lawsuits will then be brought 
when it becomes apparent that it is incomplete and inaccurate?
    Mr. Mihm. What I can certainly speak to is that, you know, 
one of the risks, you know, in this data processing at the end 
is that there is--we have been or as I have been discussing, 
there is issues that are--they are kind of the known unknowns 
in which they find something and they say, hey, let us--you 
know, this is an anomaly. We need to make sure that we can 
explain it, and they spend the time trying to do the root 
cause.
    So, one sort of risk is will they have that time to do 
that. The second is are there--could there be things that would 
show up that they will not know in real time, that they will 
not have an opportunity to adjust on or, rather, make a 
determination and try and find out what the story is, that we 
won't find out until we do the--what is called the post-
enumeration survey which is kind of the big check on the 
accuracy of the data. But that doesn't come out until 2022.
    And so there are two kind of buckets of concerns that we 
have there with the constricted processing time.
    Ms. Speier. So, lawsuits being filed subsequently could 
very well be in the offing. Is that correct?
    Mr. Mihm. That is not something that I can speak to. I 
mean, I know in the past there have been challenges both 
politically and through the courts to the accuracy and 
completeness of Census data.
    Ms. Speier. All right.
    Madam Chair, I can't tell how much time I have left. Has my 
time expired?
    Chairwoman Maloney. Yes, it has. Yes, it has.
    Ms. Speier. OK. I yield back.
    Chairwoman Maloney. But you had a very important line of 
questioning.
    The gentlelady yields back. Her time has expired.
    Congressman Keller?
    Congressman Keller, you are now recognized.
    Ms. Kelly. Keller or Kelly?
    Chairwoman Maloney. We can hear you.
    Mr. Keller. Keller.
    Ms. Kelly. Keller. Oh, sorry.
    Mr. Keller. Thank you, Madam Chair.
    According to the Census Bureau, as of September 8, nearly 
90 percent of housing units have been enumerated nationwide, 
including 91 percent in my home state of Pennsylvania. This 
leaves the rest of the month to collect the remaining data.
    So, I have a question for Mr. Spakovsky. Can you explain 
what is meant by housing unit? What figures--what do the 
figures I just mentioned indicate about how much of the country 
has been counted?
    Mr. von Spakovsky. By housing unit I am assuming they are 
referring to households, whether they are living in a single-
family residence or whether they are living in an apartment or 
a condominium or something like that.
    Mr. Keller. OK. So, a housing unit--could one housing unit 
be a building that might have a hundred apartments in it?
    Mr. von Spakovsky. Well, I assume so. But all of the 
figures I have seen on where the Census Bureau is saying how 
much they have completed they talk about households. So, in a--
in one housing unit if it is an apartment there might be a 
hundred households.
    Mr. Keller. Mm-hmm. So, as far as housing units, do we know 
how much of the country has been counted as far as individuals? 
What percentage? Ninety percent--90 percent of housing units, 
but what does that refer to as far as the population do we 
think that has been counted?
    Mr. von Spakovsky. All the figures I have seen refer to 
house--the number of households that have been--that have been 
counted.
    Mr. Keller. OK. Are there any communities that we may have 
missed?
    Mr. von Spakovsky. Well, look, that is a problem that the 
Census faces in every single Census is getting to people who 
are in more remote areas of the country, particularly out West, 
and that is something that they elaborately plan for. So, it is 
not as if that is a new problem or a new phenomena. It is 
something that the Census Bureau takes into effects. The 
professionals there--the professionals who have done this for a 
long time, that is something they take into account when they 
are planning how they are going to carry out the Census.
    Mr. Keller. OK. Another thing. We have heard a lot about 
the president's actions on apportionment--apportionment in 
today's hearing and in past hearings. Does this change which 
people in this country will be counted in the 2020 Census?
    Mr. von Spakovsky. No. There seems to be some confusion 
about that. It is not that the people----
    Mr. Keller. Does it change which people are going to be 
counted in the 2020 Census?
    Mr. von Spakovsky. No. It is not. It is just that the 
population that is used for apportionment is not necessarily 
the same total population counted by the U.S. Census Bureau.
    Mr. Keller. OK. Since the Census Bureau is on track to 
complete its field operations on time and produce an accurate 
count, I would like to sort of switch gears and I want to talk 
to Mr. Mihm.
    The area I represent in the Commonwealth of Pennsylvania 
would, by Census standards, be considered hard to count. I 
understand that technology has played a big part in the 2020 
Census, even in rural communities like mine.
    Can you speak to how enumerators are using technology in 
those places and if there have been any takeaways that might 
inform our data collection, going forward with 2020 and 
subsequent Census operations?
    Mr. Mihm. Yes, sir. I think that there is good use of 
technology in two levels. One is it is part of the original or 
initial enumeration. That is, allowing the internet option this 
time around.
    That has, certainly, been a--overall, a very positive story 
that tens of millions of Americans, certainly, myself included, 
you know, used that option in order to respond to the Census 
and that is both, certainly, much cheaper for the Census Bureau 
in terms of paper and processing and it also helps ensure more 
accurate data.
    At the back end that you are talking about--I shouldn't say 
the back end--that is, more in the followup where they don't 
have a response from a household, the Census takers, the 
enumerators, are using technology and so they don't have the 
old paper registers that they had in the past.
    This allows both them to collect the data and kind of get 
it into the system immediately. It also allows tracking or 
easier tracking of Census taker productivity, making sure that 
they are actually going to where they should be going, and that 
is something that the Census Bureau looks at.
    There is an old term for falsification called curbstoning. 
This is something that is--it is how technology is making sure 
that that is minimized or, you know, in fact, pretty close to 
eliminated.
    Chairwoman Maloney. The gentleman's time has expired. Thank 
you.
    Mr. Keller. OK. Thank you, and I yield--I yield back.
    Chairwoman Maloney. Congresswoman Kelly, you are now 
recognized.
    Congresswoman Robin Kelly?
    Ms. Kelly. Thank you, Madam Chair.
    The wide-reaching impact of Census data cannot be 
overstated. But among the most important goals of the Census is 
to accurately determine the apportionment of seats in the House 
of Representatives, and it is very important to be clear about 
something here.
    This is not about political gains or games. It is not about 
one party trying to come out on top. Apportionment is a 
critical process enshrined in the Constitution to ensure that 
every citizen of the United States receives a fair 
representation in Congress.
    Last year, the Urban Institute released projections that 
about 4 million people could be undercounted in the 2020 Census 
and that it could lead to the worst undercount of Black and 
Latino populations in the United States since 1990.
    Mr. Thompson, at the time the projections were released you 
were quoted in a 2019 NPR article saying that these horrific 
estimates, quote, ``may be a little bit on the conservative 
side.''
    Given all that has happened since those projections were 
released in 2019, do you think that currently the Census Bureau 
faces an even higher risk of undercount in Black and Latino 
communities?
    Mr. Thompson. Thank you, Congressman.
    I am of the opinion that there is a great risk that people 
in all communities, including Black and Latino, will see 
undercounts that were larger than in previous Censuses.
    Ms. Kelly. Why do you think communities of color are often 
undercounted in Census data?
    Mr. Thompson. Well, for example, if you look at the current 
situation, you notice that in the low-responding self-
responding areas of the United States Census tracks they are--
the Black and Latino populations are more represented in those 
tracks.
    That is, that they are overrepresented in those low-
responding Census tracks. So, that means that the work to get a 
complete count for those communities is going to be harder than 
in other communities because there is a much larger nonresponse 
followup workload to carry out.
    Ms. Kelly. And what are the consequences of being 
undercounted in terms of congressional representation?
    Mr. Thompson. Well, I could go on forever about the 
importance of the Census.
    Ms. Kelly. You can't go on forever.
    [Laughter.]
    Mr. Thompson. But it is just used for so many important 
components of our democracy, including representation, 
allocation of funds, planning for businesses, making surveys 
fully representative.
    So, undercount means that you are underrepresented and you 
are not receiving your full share of all those benefits.
    Ms. Kelly. Right. And I know in my area it is $1,400 per 
person who is undercounted every year for 10 years. In addition 
to the congressional representation, Census data is also used 
to determine local boundaries for things like city councils and 
school boards. Isn't that correct?
    Mr. Thompson. Yes, Congresswoman. That is correct.
    Ms. Kelly. So, for populations that are undercounted they 
not only stand to lose a congressional seat but also at the 
local level as well. Isn't that correct?
    Mr. Thompson. That is correct, Congresswoman.
    Ms. Kelly. So, Black and brown communities have a lot to 
lose if all of us are not counted. I just want to thank you, 
Mr. Thompson. The stakes could not be higher. Our Founders knew 
how important it was for congressional representation to be 
fairly divided based on an accurate Census.
    We should not risk depriving citizens of their 
representation guaranteed to them by the Constitution. We 
should give the Census Bureau the time it needs to conduct a 
complete and accurate Census.
    And with that, I yield back.
    Mr. Gomez.
    [Presiding.] Thank you, Ms. Kelly.
    I am filling in for Chair Maloney. I greatly appreciate 
everybody here.
    I recognize myself for five minutes for my questions.
    One of the things that we know is that this count is 
extremely crucial. Yet, four in 10 households have yet to be 
counted.
    A move like this will likely lead to an undercount among 
historically hard-to-count populations and communities of 
color, immigrants, and those in urban areas. That means 
communities like the ones I represent are going to be 
undercounted. My congressional district so far is only at 50 
percent self-response rate and enumeration rate combined.
    But despite--so I am extremely concerned. The people in my 
district are also completely concerned. Despite four former 
Census Bureau directors warning us that an earlier deadline 
would, quote/unquote, ``result in a serious and complete 
enumeration in many areas across the country,'' end quote. The 
Trump administration has dramatically accelerated the Census 
for political gains.
    On August 27 and 28, this committee interviewed three top 
officials from the Census Bureau. The first official stated, I 
quote, ``More time is always a good thing,'' end quote.
    The second official stated, I quote, ``Anytime you have 
more time it reduces risk and that will have reduced our 
risk.'' The third official said, I quote, ``Absolutely,'' when 
he was asked whether he agreed with the first two officials.
    So, my question is, Mr. Thompson, do you agree with these 
officials?
    Mr. Thompson. Well, I know those officials pretty well and 
I agree with those statements.
    Mr. Gomez. Why? Why is that?
    Mr. Thompson. Well, right now, there simply isn't enough 
time, in my opinion, to complete a really good and accurate 
data collection and there is not enough time to process the 
data after the data collection ends and then do it in an 
accurate way.
    So, I think that those raise very, very serious concerns 
and I detailed a lot of those in my testimony.
    Mr. Gomez. In a sworn declaration filed with a Federal 
court on September 4, Mr. Fontenot, the associate director of 
the 2020 Census, stated that if a Federal court were to stop 
the Census Bureau from proceeding with its new rushed schedule, 
I quote, ``We would evaluate all the changes we have made for 
the replanned schedule and determine which to reverse or 
modify. We would go through each and every aspect of the 
remaining operations and determine how best to use the 
remaining time to maximize the accuracy and completeness of the 
Census results. In other words, the Census Bureau stands ready 
to uncrash its schedule. If Congress gives it the time it 
needs, it can decide how to do that.''
    Mr. Thompson, do you have confidence that the Census Bureau 
has the ability to make use of the statutory extension from 
Congress if passed?
    Mr. Thompson. I certainly think the Census Bureau could 
make great use of it.
    Mr. Gomez. And in the past three Censuses, none of which 
took place during a pandemic, the Bureau has needed five months 
to accurately and completely deliver apportionment and 
redistricting data. Is that correct?
    Mr. Thompson. At least five months.
    Mr. Gomez. At least five months. What is the preferred 
amount of time?
    Mr. Thompson. Well, for this Census I think the preferred 
amount of time is the time that the Census Bureau developed 
when it was on the basis of its extensive planning and 
research, which in this case would be five months.
    Mr. Gomez. Mr. Thompson, so why is it important for the 
Bureau to have adequate amount of time to process the data?
    Mr. Thompson. Well, you don't--if you don't have adequate 
amount of time, the problem is you can make computer errors 
that are not detected, and they--immediately and they would 
probably carry through into the apportionment and the 
redistricting. So, there is just a high risk of computer 
errors.
    Mr. Gomez. I greatly appreciate your answers. One of the 
things that we heard from my colleagues on the other side of 
the aisle is that they are almost convoluting two different 
arguments; one, that undocumented immigrants should not be 
counted, two, that we shouldn't extend the deadline to make 
sure that everybody is accurately counted.
    If we are--if we extend the deadline to count everybody and 
then the Republicans and this president are trying to back out 
undocumented immigrants, I don't understand why they wouldn't 
extend the deadline unless they don't want U.S. citizens who 
are in minority communities or in urban areas not to be counted 
as well.
    So, I have suspicions the motivations of this 
administration when they tried to add the citizenship question 
was rejected by the Supreme Court. It was--Judge Roberts just 
rejected it flatly as something that was contrived.
    So, with that, I urge my colleagues to--on the other side 
of the aisle to support the extension of the deadlines for 
Census Bureau.
    Thank you, and I yield--I yield my own time, and now I 
would like to recognize Ms. Tlaib for five minutes.
    [No response.]
    Mr. Gomez. I don't see her.
    I would like to recognize Ms. Porter for five minutes.
    [No response.]
    Mr. Gomez. Ms. Porter?
    Ms. Porter. Yes. Hello. How are you? I apologize.
    Mr. Gomez. Don't worry about it. Technical difficulties on 
all sides.
    Ms. Porter, you are recognized for five minutes for your 
questioning.
    Ms. Porter. Thank you.
    Mr. Mihm, you said in your August report that it would be 
especially difficult for the Census Bureau to get accurate 
counts of college students if Census operations were not 
extended to make up for time lost.
    I was a professor at the University of California Irvine 
before being elected to Congress, and my district is home to a 
university with more than 35,000 students as well as a number 
of smaller colleges.
    Mr. Mihm, when are college students normally counted?
    Mr. Mihm. Ma'am, college students are normally counted at 
their university, either in their dorm or if they are living 
off campus, under Census rules their usual residence.
    Ms. Porter. Oh, I am sorry. What time of year? What time of 
year?
    Mr. Mihm. I am sorry, ma'am? Oh, time of year?
    Ms. Porter. What time of year do we usually count them?
    Mr. Mihm. It would be--it would be sent, you know, at or 
around Census Day.
    Ms. Porter. OK.
    Mr. Mihm. So, it would be--this time it would have been in 
the spring.
    Ms. Porter. So, around April. Exactly.
    Mr. Mihm. Yes.
    Ms. Porter. So, around April, and in a normal year seniors 
are graduating
    [Inaudible] and in your report you noted that when campuses 
shut down many students went home and could not be contacted.
    So, my question is, if we are missing a bunch of graduating 
seniors, that is as many--could be as much as a quarter of 
students in the school, like 5,000, 6,000, 7,000 students in 
many places. Is that correct? If we fail to count college 
seniors?
    Mr. Mihm. Yes, ma'am, and the risk is actually on two sides 
and we won't actually know until later.
    Ms. Porter. And when is it going to come?
    Mr. Mihm. I am sorry, ma'am?
    [No response.]
    Mr. Mihm. The risk is on two sides. We could--we could end 
up missing them or we could end up having them be double 
counted, both at the university and if they are back home, and 
the point is that we will not know that until much later.
    Ms. Porter. You said in your report that the Census Bureau 
has requested administrative data from around 1,400 colleges in 
larger towns and cities. When you published that report on 
August 27, only 51 percent of colleges have agreed to share 
that information. Where is that number now?
    Mr. Mihm. I don't have an update on that, ma'am. But I will 
check and get that back to your office as soon as I can get the 
better number.
    Ms. Porter. Right. But as of a month--a couple weeks ago we 
were at half of our colleges being counted, which is not a good 
place to be.
    I want to turn to Mr. Johnson now and ask if there is not 
an extension of the Census what does that mean for what the 
Census calls hard-to-count areas?
    Mr. Thompson. Thank you, Congressman.
    So, those are going to be the areas that would be affected 
the most by not allowing the Census Bureau the proper time that 
they requested initially to complete their work.
    Those communities have lower response rates and, therefore, 
they have greater amount of work to do in nonresponse followup. 
That is where the biggest challenges are to gain a complete and 
accurate count.
    So, those communities would be affected the most.
    Ms. Porter. And I think some people might be really 
surprised to learn about what are hard-to-count areas. We often 
think of them as rural areas, places without broadband access, 
places where there might be languages barriers.
    I want to show people an example of--this is a picture of 
Big Sur, California. Mr. Johnson, is Big Sur hard to count?
    Mr. Thompson. Excuse me. Is Big Sur hard to count?
    Ms. Porter. Yes.
    Mr. Thompson. Well, there are certain rural areas in Big 
Sur that are very hard to get to. I happen to have actually 
been there for a while. So yes, there are portions of it that 
would be hard to count.
    Ms. Porter. So, the self-response rate in this beautiful 
area was 35 percent last Census and is down by more than 10 
points so far this cycle.
    This part of California is almost 100 percent Spanish 
speaking and broadband is really limited, and that is two big 
factors to enumeration. And one consequence of less funding, of 
course, is a lack of a count is less Federal funding for this 
amazing bridge that goes over Highway 1.
    I also wanted to ask you about other hard to--does this 
look like a hard-to-count area to you? This is San Clemente, 
California, in the southern part of Orange County. Is this hard 
to count?
    Mr. Thompson. Congresswoman, I would really have to look. 
There are areas in southern California that certainly show up 
on the Bureau's hard-to-count indicator. I would have to study 
that a little bit more to answer that.
    Ms. Porter. And in that particular part of San Clemente 
just north of there is 65 percent renters, 20 percent 
immigrants, and that helps explain why their response rate is 
below 60 percent. If they don't get counted the local school 
district loses education.
    I want to show one more hard-to-count area. This is the 
University of California Irvine. Is this a hard-to-count area?
    Mr. Thompson. I would think that any area right now with a 
large college student population is going to face some 
challenges in getting an accurate enumeration simply because of 
all the displacement of college students.
    As one--and I shouldn't say simply. I should say that is 
one component of why it is going to be difficult.
    Ms. Porter. Would extra time help count these--would extra 
time help in these hard-to-count areas with giving us an 
accurate count?
    Mr. Thompson. It certainly would.
    Ms. Porter. Thank you very much. With that, I yield back.
    Mr. Gomez. Thank you, Member Porter.
    Now I recognize Representative Plaskett for five minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman. I hope 
that I can be heard at this time. Am I available?
    Thank you. So, I have heard a lot of discussion that has 
been going on about the Bureau's plan in operations related to 
rural areas and to Native American tribes.
    James Tucker, vice chair of the U.S. Census National 
Advisory Committee, has said, quote, ``We are probably looking 
at historic undercount. It is not going to be enough time.''
    Senior Census Bureau officials admitted that they are 
struggling to enumerate these areas. For example, Tim Olson, 
the associate director for field operations, stated, quote, 
``In Indian Country, particularly Montana, Arizona, New Mexico, 
those are the three primary states where we have challenges, 
where specific tribal governments on their lands, on their 
reservations, have shut down to the public to come into their 
sovereign nation to prevent, you know, a horrible outcome of 
coronavirus.''
    My first question is to you, Governor Lewis. You have given 
some excellent testimony to us. Tribal nations are considered 
hard to count even during a Census that does not--is not taking 
place during a pandemic.
    Can you explain why that is?
    Mr. Lewis. Excuse me. Yes.
    First of all, we still have an internet, I would say, 
broadband divide. There was discussion about technology and the 
internet option, and that just isn't the case, at least from 
the Gila River Indian Community where we are still trying to--
you know, to distribute broadband infrastructure, and this was 
even brought to an even more critical point during this 
pandemic as well, and I know other tribes----
    Ms. Plaskett. Do you know, sir--excuse me, Governor, do you 
know how many families are without? What is the percentage of 
families without broadband or even spotty broadband in your 
area?
    Mr. Lewis. Well, we have about 2,200 households on the 
community and we have identified hundreds of households that 
just don't have access to broadband because of their location.
    Ms. Plaskett. Right.
    Mr. Lewis. You know, we are just south of Phoenix but we 
are in a very remote area in the Sonoran Desert. Beautiful 
Sonoran Desert, but nonetheless, we have--you know, so we have 
identified not only no connectivity but also just the 
infrastructure available for broadband.
    So, that has really hampered our areas as well, and also, 
because this goes to the reality right now on Indian 
reservations has to do with street addresses versus P.O. boxes.
    We have a number that are Post Office boxes that our 
community members have versus street addresses, and that also 
goes against and it has really been a barrier for those 
enumerators going because you have to have that geographic 
locator number.
    Ms. Plaskett. Yes.
    Mr. Lewis. And if you don't have a street address, then it 
is hard and that has also contributed in the past to the vast 
undercounting of Native Americans.
    Even early on in this latest 2020 Census some of my 
community members--some of the enumerators have come and they 
have just put their--the information on their fences, you know, 
and they have blown away. Put them, you know, just, you know, 
on some of their--near their house, you know. So, you know, 
those are the realities, you know, and that is--and, you know, 
we lose a vast number of those to these logistical barriers, 
which is a reality.
    Ms. Plaskett. I know. Listen, I understand. In the Virgin 
Islands, we are just now still even giving street names to 
areas where people live. So, people have Post Office boxes.
    There are streets that are not named, and unfortunate for 
those of us in the smaller territories, we are not even able to 
do the Census online.
    There is no online drop box for any--for the Virgin Islands 
or Guam or American Samoa, an area that already has very few or 
has been--you know, the inequities that we have in Federal 
funding people are aware of is going to be even greater.
    My time is about to run out and I wanted to ask Mr. 
Thompson why rural, hard-to-count--why are areas that are rural 
hard to count during a normal Census and what are the increased 
risks to undercount for rural communities under a truncated 
schedule.
    And if you answer that question, I will yield back, Mr. 
Chairman.
    Mr. Thompson. Thank you, Congresswoman.
    So, rural areas have unique challenges. You really have to 
have a deep understanding of the rural area to properly count 
it. You need to understand what is a road, what is a driveway, 
what is just a logging trail, for example. You have to be 
accepted by the rural community.
    You have to understand how to approach people in the right 
way. There are a whole lot of unique features that rural areas 
have that make many of them hard to count.
    Ms. Plaskett. Thank you.
    Mr. Thompson. And to finish the answer. And it takes time. 
It just doesn't happen overnight. It takes a lot of hard work 
to get the work done because you have to travel over greater 
distances and the like.
    Mr. Gomez. Thank you, Ms. Plaskett.
    Now I recognize Ms. Tlaib for five minutes.
    Ms. Tlaib. Thank you, Chairman, and thank you all so much 
for this. I know so many of my colleagues are politicizing this 
and making this about apportionments and representation in 
Congress.
    But as someone that represents the third poorest 
congressional district in the country, it really is about the 
$1.5 trillion of Federal money that gets distributed and the 
fact that even during the pandemic, if anything, it exposed the 
fact that my district--my state saw 40 percent of the African 
American population impacted directly by COVID with death.
    So, the number of people that have died from COVID that are 
my Black neighbors made up 40 percent, even though they make up 
the total population of the state as 15 percent.
    You know, Medicaid's State children's CHIP program, a 
number of programs like WIC, are so critically important, 
again, to my district.
    So, I really want to be honest with this. You know, I 
always prep for these and then I listen to many of my 
colleagues, and I am so taken aback by the fact that, you know, 
we are getting asked about--a lot about our undocumented 
immigrant neighbors.
    We are getting asked about apportionment and how 
congressional districts are made up. But we never actually talk 
about the people that rely on this data and misinformation for 
their services.
    When you think about mobile testing during COVID, they 
looked at the Census. Public health research, they look at the 
Census. Class sizes, they look at the Census.
    So, Mr. Thompson--Director Thompson, I really want to be 
honest here. When they decide to shorten this, doesn't it 
impact majority communities of color?
    Mr. Thompson. Those are some of the communities, 
Congresswoman, that are, certainly, affected. As the previous 
Congresswoman noted, rural areas can also be particularly 
challenging.
    Ms. Tlaib. Absolutely.
    Mr. Thompson. And that would be for both people of color 
and people that aren't of color. So yes, hard-to-count 
communities which contain people of color are, certainly, 
affected by a shortened timeframe.
    Ms. Tlaib. Well, you know, what I hear from my colleagues I 
just don't think they want people that look like me counted.
    So, Governor, you, as someone that--you know, some of the 
most vulnerable populations that you represent, right, many of 
the people you fight for, those are the people that are going 
to be left out.
    I mean, what I am hearing from my colleagues is shortening 
the time, it is OK because brown and Black folks are not going 
to get counted. Big deal. Indigenous communities not going to 
get counted. Yes, they are our hardest hit. They need more time
    [inaudible] pandemic.
    OK. Do you feel that way? I mean, that is what I am 
hearing, again, from the rhetoric coming out of the other side 
of the aisle.
    Mr. Lewis. Congresswoman, definitely. I think it was 
discussed earlier what will be lost--what will be lost are 
numbers from our underserved communities.
    And, you know, and just to go into some of the timeframe, I 
mean, I am aware that the Census Bureau will generally return 
to areas with the current anomalies in the count.
    However, given the condensed timeframe between the end of 
September and the end of--and the end of December when 
reporting is due, the Bureau will only have three months to 
qualify control--to have--to qualify control--for quality 
control, rather, instead of the normal six-month period.
    Common sense was talked about earlier. Common sense 
indicates that there isn't adequate time for a return to verify 
counts in undercounted areas, to perform quality control and to 
provide apportionment and redistricting reports in three months 
so within the compressed timeframe.
    Ms. Tlaib. And, sir, you are not even thinking about--but 
you are not even thinking about congressional districts. You 
are thinking about resources. You are thinking about how will I 
make sure that my folks are not left out. Is that correct?
    Mr. Lewis. Definitely. I----
    Ms. Tlaib. I mean, most of my neighbors, most of my 
residents in my district, Governor, they are not asking me 
about that. They are--you know what they are saying is, 
Rashida, we got to make sure we get counted because we know 
these are thousands of dollars that come to our city that gets, 
you know, again not--we don't get access to it when we don't 
get counted.
    Mr. Lewis. I am thinking about, Congresswoman, my Elders 
are worried about their services, you know, their nutrition 
services. I am thinking about my children, our children, you 
know, in our community going to these schools both on the 
reservation and off the reservation that will be affected as 
well from this undercount, and for 10 years. For--you know, 
for--will be living with this--with this drastic undercounting.
    Ms. Tlaib. Yes. Ms. Stacey, just with you if you are still 
on, I--you know as you were being asked a lot of these question 
about constitutional law, you know, the first thing I kept 
thinking about is--I am sorry?
    Ms. Stacey--Ms. Carless, is it?
    Ms. Carless. Carless. Yes.
    Ms. Tlaib. Yes, Ms. Carless. I am so sorry.
    I wanted to ask, you know, much of the questions that were 
asked of you earlier in the hearing, you know, was very 
alarming. But I want to ask you one very directly.
    Do you think people that look like you and I are going to--
I mean, that it is intentional on the part of the--reducing the 
timeline that it is intentional to make sure that people that 
look like you and I are not counted?
    Ms. Carless. I do think it is somewhat intentional. You 
know, research has shown that NRFU has been impactful in making 
sure that Black and brown people are counted as well as, you 
know, the great pivot that we have had to make an outreach that 
doesn't allow trusted messengers to build appropriate 
relationships with our community members to teach them about 
the Census to make sure that Black and brown people are 
counted.
    So, any effort to reduce our time or ability to connect 
with community members, I think, is intentional.
    Ms. Tlaib. Thank you so much. I yield.
    Mr. Gomez. Thank you, Ms. Tlaib.
    I want to first take a moment to thank our witnesses for 
testifying today.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will be forwarded to the 
witnesses for their response. I ask our witnesses to please 
respond as promptly as you are able to.
    This hearing is now adjourned.
    [Whereupon, at 2:29 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
